<html>
<title> - TIBET: SPECIAL FOCUS FOR 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                     TIBET: SPECIAL FOCUS FOR 2007

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
38-229                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS


                                     
House                                Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-
MARCY KAPTUR, Ohio                   Chairman
MICHAEL M. HONDA, California         MAX BAUCUS, Montana
TOM UDALL, New Mexico                CARL LEVIN, Michigan
TIMOTHY J. WALZ, Minnesota           DIANNE FEINSTEIN, California
DONALD A. MANZULLO, Illinois         SHERROD BROWN, Ohio
JOSEPH R. PITTS, Pennsylvania        SAM BROWNBACK, Kansas
EDWARD R. ROYCE, California          CHUCK HAGEL, Nebraska
CHRISTOPHER H. SMITH, New Jersey     GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)
                     Tibet: Special Focus for 2007


                                findings


        <bullet> No progress in the dialogue between China and 
        the Dalai Lama or his representatives is evident. After 
        the Dalai Lama's Special Envoy returned to India after 
        the sixth round of dialogue, he issued the briefest and 
        least optimistic statement to date. Chinese officials 
        showed no sign that they recognize the potential 
        benefits of inviting the Dalai Lama to visit China so 
        that they can meet with him directly.
        <bullet> Chinese government enforcement of Party policy 
        on religion resulted in an increased level of 
        repression of the freedom of religion for Tibetan 
        Buddhists during the past year. The Communist Party 
        intensified its long-running anti-Dalai Lama campaign. 
        Tibetan Buddhism in the Tibet Autonomous Region (TAR) 
        is coming under increased pressure as recent legal 
        measures expand and deepen government control over 
        Buddhist monasteries, nunneries, monks, nuns, and 
        reincarnated lamas. The Chinese government issued legal 
        measures that if fully implemented will establish 
        government control over the process of identifying and 
        educating reincarnated Tibetan Buddhist teachers 
        throughout China.
        <bullet> Chinese authorities continue to detain and 
        imprison Tibetans for peaceful expression and non-
        violent action, charging them with crimes such as 
        ``splittism,'' and claiming that their behavior 
        ``endangers state security.'' The Commission's 
        Political Prisoner Database listed 100 known cases of 
        current Tibetan political detention or imprisonment as 
        of September 2007, a figure that is likely to be lower 
        than the actual number of Tibetan political prisoners. 
        Based on sentence information available for 64 of the 
        current prisoners, the average sentence length is 11 
        years and 2 months. Tibetan Buddhist monks and nuns 
        make up a separate set of 64 of the known currently 
        detained or imprisoned Tibetan political prisoners as 
        of September 2007, according to data available in the 
        Commission's Political Prisoner Database. Based on data 
        available for 42 currently imprisoned Tibetan monks and 
        nuns, their average sentence length is 10 years and 4 
        months. (It is a coincidence that the number of monks 
        and nuns, and the number of prisoners for whom the 
        Commission has sentence information available, are both 
        64).
        <bullet> In its first year of operation, the Qinghai-
        Tibet railway carried 1.5 million passengers into the 
        TAR, of whom hundreds of thousands are likely to be 
        ethnic Han and other non-Tibetans seeking jobs and 
        economic opportunities. The government is establishing 
        greater control over the Tibetan rural population by 
        implementing programs that will bring to an end the 
        traditional lifestyle of the Tibetan nomadic herder by 
        settling them in fixed communities, and reconstructing 
        or relocating farm 
        villages.


                              INTRODUCTION


    The human rights environment that the Communist Party and 
Chinese government enforce in the Tibetan areas of China has 
not improved over the past five years, and has deteriorated 
since 2005. No progress in the dialogue between China and the 
Dalai Lama or his representatives is evident. Implementation of 
China's Regional Ethnic Autonomy Law is weak and prevents 
Tibetans from realizing the law's guarantee that ethnic 
minorities have the ``right to administer their internal 
affairs.'' The Communist Party tolerates religious activity 
only within strict limits imposed by China's constitutional, 
legal, and policy framework. Legal measures issued in 2006 and 
2007 impose unprecedented government control on Tibetan 
Buddhist activity. Party campaigns that seek to discredit the 
Dalai Lama as a religious leader, to portray him and those who 
support him as threats to China's state security, and to 
prevent Tibetans from expressing their religious devotion to 
him have intensified since 2005.
    The government and Party prioritize economic development 
over cultural protection, eroding the Tibetan culture and 
language. Changes in Chinese laws and regulations that address 
ethnic autonomy issues and that have been enacted since 2000, 
when the government implemented the Great Western Development 
program, tend to decrease the protection of ethnic minority 
language and culture. The Qinghai-Tibet railway began service 
in July 2006 and has carried thousands of passengers to Lhasa 
each day, leading to crowded conditions in the city and 
increased pressure on the Tibetan culture. In recent years, 
governments in some Tibetan areas have accelerated the 
implementation of programs that require nomadic Tibetan herders 
to settle in fixed communities. The Chinese government applies 
the Constitution and law in a manner that restricts and 
represses the exercise of human rights by Tibetans, and that 
uses the law to punish peaceful expression and action by 
Tibetans deemed as threats to state security. The government 
made no progress in the past year toward improving the right of 
Tibetans in China to exercise their constitutionally guaranteed 
freedoms of religion, expression, and assembly. Such 
restrictions are inconsistent with the Chinese government's 
obligations under international human rights standards.


         STATUS OF DISCUSSION BETWEEN CHINA AND THE DALAI LAMA


   Commission Recommendations, U.S. Policy, and the Report on Tibet 
                              Negotiations

    Commission Annual Reports in 2002, 2004, 2005, and 2006 
included recommendations in support of the dialogue between the 
Chinese government and the Dalai Lama or his representatives. 
The Commission has observed no evidence of substantive progress 
in that dialogue toward fair and equitable decisions about 
policies that could help to protect Tibetans and their 
religion, language, and culture, even though a session of 
dialogue took place each year beginning in 2002, and even 
though a basis for such protections exists under China's 
Constitution and law.\1\ In response to the lack of progress 
over the years, the Commission strengthened recommendations in 
successive annual reports.\2\ The 2006 Annual Report called for 
efforts to persuade the Chinese government to invite the Dalai 
Lama to visit China so that he could seek to build trust 
through direct contact with the Chinese leadership.\3\ In 2007, 
Chinese officials continued to allow the potential mutual 
benefits of the dialogue process--a more secure future for 
Tibetan culture and heritage, and improved stability and ethnic 
harmony in China--to remain unrealized.
    The U.S. Congress will award the Congressional Gold Medal 
to the Dalai Lama on October 17.\4\ The congressional act 
providing for the award finds that the Dalai Lama ``is the 
unrivaled spiritual and cultural leader of the Tibetan people, 
and has used his leadership to promote democracy, freedom, and 
peace for the Tibetan people through a negotiated settlement of 
the Tibet issue, based on 
autonomy within the People's Republic of China.'' \5\
    U.S. government policy recognizes the Tibet Autonomous 
Region (TAR) and Tibetan autonomous prefectures and counties\6\ 
in other provinces to be a part of China.\7\ The Department of 
State's 2007 Report on Tibet Negotiations articulates U.S. 
Tibet policy:

        Encouraging substantive dialogue between Beijing and 
        the Dalai Lama is an important objective of this 
        Administration. The United States encourages China and 
        the Dalai Lama to hold direct and substantive 
        discussions aimed at resolution of differences at an 
        early date, without preconditions. The Administration 
        believes that dialogue between China and the Dalai Lama 
        or his representatives will alleviate tensions in 
        Tibetan areas and contribute to the overall stability 
        of China.\8\

    The Report on Tibet Negotiations observes that the Dalai 
Lama ``represents the views of the vast majority of Tibetans,'' 
and that ``his moral authority helps to unite the Tibetan 
community inside and outside of China.'' \9\ The report 
cautions that ``the lack of resolution of these problems leads 
to greater tensions inside China and will be a stumbling block 
to fuller political and economic engagement with the United 
States and other nations.'' The report rejects the notion that 
the Dalai Lama is seeking Tibetan independence:

        [T]he Dalai Lama has expressly disclaimed any intention 
        to seek sovereignty or independence for Tibet and has 
        stated that he only seeks for China to preserve Tibetan 
        culture, spirituality, and environment.\10\

    The President and other senior U.S. officials have pressed 
Chinese leaders to move forward in the dialogue process, 
according to the Report on Tibet Negotiations. In April and 
November 2006, President Bush urged President Hu Jintao to 
continue the dialogue and hold direct discussions with the 
Dalai Lama.\11\ Secretary of State Condoleezza Rice called on 
Foreign Minister Li Zhaoxing to engage in direct talks with the 
Dalai Lama when they met at the UN General Assembly in 
September 2006.\12\ When Secretary Rice traveled to China in 
October 2006, she reiterated the request for direct dialogue 
between Chinese officials and the Dalai Lama.\13\ Under 
Secretary of State for Democracy and Global Affairs Paula 
Dobriansky, who has served since 2001 as the Special 
Coordinator for Tibetan Issues and as a CECC Commissioner,\14\ 
traveled to Beijing in August 2006 and raised ``the need for 
concrete progress'' during meetings with officials including 
Executive Vice Foreign Minister Dai Bingguo and Assistant 
Foreign Minister Cui Tiankai, according to the Report on Tibet 
Negotiations.\15\ Deputy Secretary of State John Negroponte 
raised the same issues during a February 2007 visit to 
China.\16\

Dalai Lama's Envoys' Fifth Visit to China; Discussions with the Party's 
                                  UFWD

    The Dalai Lama's envoys visited China for the fifth 
time\17\ from June 29 to July 5, 2007, to engage in their sixth 
round of dialogue with Chinese officials.\18\ The trip 
culminated with the briefest\19\ and least optimistic statement 
issued after any of the previous rounds of dialogue. Special 
Envoy Lodi Gyari\20\ reported that he and Envoy Kelsang 
Gyaltsen engaged in three ``sessions of discussion'' in 
Shanghai and Nanjing, the capital of Zhejiang province, over a 
one and one-half day period.\21\ The statement provided no 
details about the topics the envoys discussed in meetings, or 
about their activities and location during the remainder of 
their visit. Unlike previous statements, the Special Envoy's 
statement did not close with an expression of ``appreciation'' 
to Chinese officials and hosts, perhaps signaling an increased 
level of frustration.
    Gyari's statement acknowledged that the dialogue process 
had reached a ``critical stage,'' and that ``[b]oth sides 
expressed in strong terms their divergent positions and views 
on a number of issues.'' Referring to the lack of progress, 
Gyari said, ``We conveyed our serious concerns in the strongest 
possible manner on the overall Tibetan issue and made some 
concrete proposals for implementation if our dialogue process 
is to go forward.'' \22\ The statement provided no details 
about the proposals that the envoys hope Chinese officials will 
implement.
    In China, the envoys met with the Communist Party's United 
Front Work Department (UFWD) Deputy Head Zhu Weiqun and UFWD 
Seventh Bureau Director Sithar (or Sita).\23\ The UFWD oversees 
the implementation of Party policy toward China's eight 
``democratic'' political parties, ethnic and religious groups, 
intellectuals, and entrepreneurs, among other functions. The 
UFWD established the Seventh Bureau in 2005 and appointed 
Sithar as Director, according to a September 2006 Singtao Daily 
report.\24\ The Tibetan affairs portfolio moved from the Second 
Bureau, which handles ethnic and religious affairs, to the new 
Seventh Bureau. Sithar previously served as a deputy director 
of the Second Bureau.\25\
    The creation of the UFWD Seventh Bureau may signal that the 
Party leadership has attached increased importance to Tibetan 
issues, such as the ongoing dialogue with the Dalai Lama's 
representatives. The mission of the Seventh Bureau, according 
to the Singtao Daily report, is ``to cooperate with relevant 
parties in struggling against secessionism by enemies, both 
local and foreign, such as the Dalai Lama clique, and to liaise 
with overseas Tibetans.'' \26\ The report notes that Party 
leaders are concerned 
principally about the ``development of the Tibet independence 
movement in the `post-Dalai Lama era'.'' \27\
    UFWD officials with whom the Dalai Lama's envoys meet also 
hold additional posts in governmental, advisory, and NGO 
spheres that increase and extend their influence on the future 
of Tibetan culture, religion, and language. Liu Yandong, whom 
the envoys met during trips to China in 2003 and 2004,\28\ is 
head of the UFWD, Vice Chairman of the Chinese People's 
Political Consultative Conference, and the Honorary President 
of China Association for Preservation and Development of 
Tibetan Culture (CAPDTC), a 
Chinese NGO founded in June 2004 that describes its legal 
status as ``independent.'' \29\ Zhu is a member of the CCP 
Central Commission for Discipline Inspection, a senior official 
of the State Council Information Office,\30\ a cabinet-level 
part of the Chinese government, and the Vice President of 
CAPDTC.\31\ Sithar is CAPDTC's Vice Chairman.\32\

  A Tibetan Vision of Autonomy: The Special Envoy Provides More Detail

    In 2006 and 2007, the Dalai Lama, Special Envoy Lodi Gyari, 
and the elected head of the Tibetan government-in-exile, 
Samdhong Rinpoche, increased their efforts to advocate their 
vision of Tibetan autonomy under Chinese sovereignty, and to 
provide more detailed statements about their proposed formula. 
In his annual March 10, 2007, statement,\33\ the Dalai Lama 
asserted, ``The most important reason behind my proposal to 
have genuine national regional 
autonomy for all Tibetans is to achieve genuine equality and 
unity between the Tibetans and Chinese by eliminating big Han 
chauvinism and local nationalism.'' \34\ In testimony before 
the U.S. House of Representatives Foreign Affairs Committee on 
March 13, 2007, Gyari stated, ``In treating the Tibetan people 
with respect and dignity through genuine autonomy, the Chinese 
leadership has the opportunity to create a truly multi-ethnic, 
harmonious nation without a tremendous cost in human 
suffering.'' \35\ Samdhong Rinpoche told a gathering of 
advocacy groups in Brussels in May 2007, ``We are simply asking 
for the sincere implementation of the national regional 
autonomy provisions enshrined in the Constitution of the 
People's Republic of China, which is further spelt out in the 
autonomy law.'' \36\
    The basis of the Tibetan negotiating position continues to 
be the Dalai Lama's Middle Way Approach,\37\ which renounces 
Tibetan independence in exchange for genuine autonomy. An 
outcome of the dialogue process that would fulfill Tibetan 
wishes in a manner consistent with the Middle Way Approach 
would require the Chinese government's agreement to:

        <bullet> The inclusion under the agreement of all the 
        areas in China that many Tibetans regard as ``the three 
        traditional provinces of Tibet,'' or about one-quarter 
        of China;\38\
        <bullet> The unification of that area under one 
        genuinely autonomous administration; and
        <bullet> The empowerment of the residents of the 
        resulting administrative area to elect a government 
        through a democratic process.

    Gyari identified the Chinese response to the Tibetan 
demands that ``the entire Tibetan people need to live under a 
single administrative entity,'' and that Tibetans practice 
``genuine autonomy,'' as the principal area of disagreement in 
a November 2006 address at the Brookings Institution in 
Washington, D.C.\39\ His prepared statement\40\ and responses 
to questions\41\ were more detailed than remarks Gyari made 
after the previous rounds of dialogue. The Dalai Lama 
emphasized his commitment to the same principles in March 2006, 
saying in his March 10 speech, ``I have only one 
demand: self-rule and genuine autonomy for all Tibetans, i.e., 
the Tibetan nationality in its entirety.'' \42\ Samdhong 
Rinpoche underscored the importance Tibetans place on including 
all Tibetans in a reconfigured Tibet when he addressed advocacy 
groups in May: ``[A]ll Tibetans must be administered by a 
single autonomous self-government.'' \43\
    Like many Tibetans, Gyari refers to all of the territory in 
China where Tibetans live as ``Tibet.'' ``[I]t is a reality 
that the landmass inhabited by Tibetans constitutes roughly 
one-fourth\44\ the territory of [China],'' he said in his 
Brookings statement.\45\ The Chinese government ``has already 
designated almost all Tibetan areas as Tibet autonomous 
entities. . . . Thus, our positions on what constitutes Tibet 
are really not so divergent.'' \46\ The land area that Tibetans 
claim as Tibet is about 100,000 square miles larger than the 
total area of the TAR and the Tibetan autonomous prefectures 
and counties designated by China.\47\ Aside from pockets of 
long-term Tibetan settlement in Qinghai province,\48\ most of 
the area that 
Tibetans claim beyond the existing Tibetan autonomous areas is 
made up of autonomous prefectures and counties allocated to 
other ethnic groups.\49\ Ten counties in that area have 
populations that are between 5 and 25 percent Tibetan, 
according to official 2000 census data.\50\ The precise portion 
of the approximately 100,000 square mile area that Tibetans 
claim as Tibet, and where the Tibetan population is less than 5 
percent,\51\ is unknown because a map that indicates the 
boundary of Tibet with respect to current Chinese 
administrative geographic divisions at the prefectural and 
county levels is not available.
    Gyari addressed the critics of proposed administrative 
unification of land where Tibetans live, saying, ``Having the 
Tibetan people under a single administrative entity should not 
be seen as an effort to create a `greater' Tibet, nor is it a 
cover for a separatist plot.'' \52\ Tibetans ``yearn to be 
under one administrative entity so that their way of life, 
tradition, and religion can be more effectively and peacefully 
maintained,'' he said, and pointed out that the Chinese 
government ``has redrawn internal boundaries when it suited its 
needs.'' \53\ Gyari's prepared statement cites as an example 
the abolition in 1955 of Xikang province upon the completion of 
the division of its territory between Sichuan province and what 
later became the TAR.\54\
    Establishing a unified Tibetan autonomous administrative 
area such as the Special Envoy described would involve all of 
the TAR, all or most of Qinghai province, approximately half of 
Sichuan province, parts of Gansu and Yunnan provinces, and 
according to some maps, a small part of Xinjiang Uighur 
Autonomous Region.\55\ Under China's Constitution, establishing 
or changing units of administrative geography would require 
approval by the National People's Congress (NPC) or the State 
Council, or both.\56\
    The Dalai Lama and Lodi Gyari provided more detailed 
statements than previously about their expectations of 
``genuine autonomy,'' which can be compared to the prevailing 
situation under the Regional Ethnic Autonomy Law (REAL).\57\ 
Although the REAL declares in its Preamble that the practice of 
autonomy conveys the state's ``full respect for and guarantee 
of ethnic minorities' right to administer their internal 
affairs,'' \58\ the Dalai Lama explained in his March 10, 2007, 
statement the manner in which he believes the REAL has failed 
ethnic groups like Tibetans:

        The problem is that [regional ethnic autonomy] is not 
        implemented fully, and thus fails to serve its express 
        purpose of preserving and protecting the distinct 
        identity, culture and language of the minority 
        nationalities. What happens on the ground is that large 
        populations from the majority nationalities have spread 
        in these minority regions. Therefore, the minority 
        nationalities, instead of being able to preserve their 
        own identity, culture and language, have no choice but 
        to depend on the language and customs of the majority 
        nationality in their day-to-day lives.\59\

    Gyari's statement to the Brookings Institution implied that 
a solution to the autonomy issue would have to reach beyond the 
REAL's status quo, and perhaps be innovative. He discussed the 
Tibetan need for autonomy in the context of the higher level of 
rights that Hong Kong and Macao enjoy under their status as 
special administrative regions (SARs).\60\ Gyari said that the 
Tibetans have not proposed to their Chinese interlocutors any 
specific autonomy formula or administrative title, such as an 
SAR, and stressed, ``[W]e place more importance on discussing 
the substance than on the label.'' \61\ Samdhong Rinpoche 
maintained that a solution is available within the existing 
constitutional and legal environment: ``The PRC leadership can 
very easily grant whatever we are asking for, if they have the 
political will. They need not have to amend their constitution 
nor make a major shift in their policies.'' \62\

   The Tibetan Vision of Autonomy Versus China's Constitution and Law

    The outlook for what the Tibetans call ``genuine autonomy'' 
under the current implementation of the REAL is poor. Communist 
Party control over China's legislative, governmental, 
policymaking, and implementation process, as well as 
contradictory provisions in Chinese laws and regulations, 
undercut the practice of regional ethnic autonomy in China. As 
a result, the functional level of autonomy that Chinese laws 
and regulations provide to local Tibetan autonomous governments 
to ``administer their internal affairs,'' \63\ to protect their 
culture, language, and religion, and to manage policy 
implementation on issues such as economic development and the 
environment, is negligible.
    Recent laws, regulations, and local implementing measures 
consistently prioritize the central government's interests 
above protecting the right of ethnic autonomous governments to 
exercise self-government.\64\ The same legal issues that 
minimize the level of local autonomy for Tibetans serve to 
diminish the prospects for substantive progress in dialogue 
between Chinese officials and the Dalai Lama and his envoys. 
The following examples of how China's application of law 
adversely affects Tibetan autonomy are indicative, not 
comprehensive. [See Section II--Ethnic Minority Rights for more 
information on the REAL.]

The REAL Provides Subordination, Not Self-government
    Article 7 of the REAL counteracts the Preamble's guarantee 
that ethnic autonomous governments have the right to 
``administer their own affairs'' by directing that, 
``Institutions of self-government in ethnic autonomous areas 
shall place the interests of the state as a whole above all 
else and actively fulfill all tasks assigned by state 
institutions at higher levels.''

The REAL Provides a Basis To Divide Tibetan Areas, Not To Unify Them
    Tibetan leaders, including Lodi Gyari and Samdhong 
Rinpoche, have described their vision in the past year that 
China's Constitution and law, including the REAL, can support 
the unification of Tibetan autonomous areas.\65\ The 
Constitution and REAL do not state explicitly whether or not 
contiguous areas where the same ethnic group lives are entitled 
to be included in the same ethnic autonomous area. In fact, 
Article 12 of the REAL provides the Chinese government a basis 
in law for division by allowing the establishment of ethnic 
autonomous areas to take into consideration factors such as 
``historical background'' and ``the relationship among the 
various nationalities.'' \66\ Because the National People's 
Congress (NPC) and State Council have the constitutional 
authority to approve the establishment of autonomous regions, 
prefectures, and counties, and to alter their geographic 
divisions,\67\ it is Beijing's view of history and ethnic 
relations that guides decisions to apply the REAL in a manner 
that unites--or divides--ethnic groups.

Conflict of Law Limits Rights Provided by the Constitution and REAL
    The Constitution and REAL state that ethnic autonomous 
congresses have the power to enact autonomy or self-governing 
regulations ``in the light of the political, economic, and 
cultural characteristics'' of the relevant ethnic group(s).\68\ 
But the Legislation Law reserves to the State Council the power 
to issue regulations when the NPC specifically authorizes the 
State Council to do so, thereby intruding upon the right of 
ethnic autonomous congresses to issue regulations.\69\ These 
provisions in the Legislation Law explicitly create a conflict 
of law with respect to rights provided by the Constitution and 
the REAL. The Legislation Law authorizes an autonomous people's 
congress to enact an ``autonomous decree or a special decree'' 
that must be approved by the standing committee of the next 
higher level people's congress.\70\

The Legislation Law Bars Autonomous Governments From Altering Laws and 
        Regulations That Concern Autonomy
    The REAL includes a provision allowing an ethnic autonomous 
government to apply to a higher-level state agency to alter or 
cancel the implementation of a ``resolution, decision, order, 
or instruction'' if it does not ``suit the actual conditions in 
an ethnic autonomous area.'' \71\ The Legislation Law, however, 
bars ethnic autonomous governments from enacting any variance 
to any law or regulation that is ``dedicated to matters 
concerning ethnic autonomous areas.'' \72\

Special Administrative Regions Offer More Flexibility
    The Chinese Constitution provides a method to create a 
political and administrative solution to challenges that the 
principal body of Chinese law cannot resolve. Article 31 
empowers the state to establish a ``special administrative 
region'' (SAR) that can satisfy a particular need ``when 
necessary,'' and authorizes the NPC to enact a law that 
institutes a ``system'' (of governance and administration) ``in 
the light of the specific conditions.'' \73\ Hong Kong and 
Macao are the only SARs created by the NPC to date. Chinese 
officials reject the notion that a Tibetan solution could be 
developed by establishing a special administrative region,\74\ 
but their arguments use as proof the dissimilarity of the pre-
reunification political and economic systems of Hong Kong and 
Macao (not reunited with China, democratic government, 
capitalist economy) compared with the current political and 
economic system in the Tibetan autonomous areas of China 
(Chinese administration, non-democratic government, socialist 
economy). The language in Article 31, however, states no 
prerequisites of any kind and allows the state to create the 
solution that it needs.


                RELIGIOUS FREEDOM FOR TIBETAN BUDDHISTS


             Commission Recommendations and China's Record

    Commission Annual Reports from 2002 to 2006 included 
recommendations calling for the Chinese leadership to ``promote 
the concept of religious tolerance,'' \75\ to ``meet with 
religious figures from around the world to discuss the positive 
impact on national development of free religious belief and 
religious tolerance,'' \76\ and to take measures to develop the 
freedom of religion in China including respecting ``the right 
of Tibetan Buddhists to freely express their religious devotion 
to the Dalai Lama.'' \77\
    The Commission cannot report improvement in the overall 
level of freedom of religion for Tibetan Buddhists at any time 
during the past five years, and in the past year the 
environment for Tibetan Buddhism has become significantly more 
repressive. The Party led an intensified anti-Dalai Lama 
campaign\78\ and an expanding program of patriotic 
education,\79\ and two sets of new legal measures imposing 
stricter and more detailed controls on Tibetan Buddhist 
institutions and religious activity took effect.\80\ In the 
Tibet Autonomous Region (TAR), the government began on January 
1, 2007, to implement new legal measures issued in September 
2006 that regulate fundamental aspects of Tibetan Buddhism in a 
stricter and more detailed manner than previous measures.\81\ 
The State Administration for Religious Affairs (SARA) issued 
legal measures in July 2007 that empower the government and 
Party to gradually reshape Tibetan Buddhism by controlling the 
religion's most important and unusual feature--lineages of 
reincarnated Buddhist teachers that Tibetan Buddhists believe 
can span centuries.\82\
    Although the Party tolerates religious activity only within 
the strict limits imposed by China's constitutional, legal, and 
policy framework, and the government further restricts those 
limits at will, Chinese authorities tolerate selected Tibetan 
Buddhist practices and expressions of religious belief,\83\ and 
the intensity of religious repression against Tibetans varies 
across regions.\84\
    [See Section II--Freedom of Religion for more information 
on Party and government control of religion.]

    TAR Party Chief Intensifies Anti-Dalai Lama Campaign, Patriotic 
                               Education

    Tibetan Buddhism is at the core of Tibetan culture and 
self-identity, and for most Tibetans the Dalai Lama is at the 
core of Tibetan Buddhism. Seeking to strengthen control over 
Tibetan Buddhism and to end the Dalai Lama's influence over 
Tibetans, the Communist Party intensified a long-running 
campaign during the past year to discredit the Dalai Lama as a 
religious leader, to portray him and those who support him as 
threats to China's state security, and to prevent Tibetans from 
expressing their religious devotion to him.
    TAR Party Secretary Zhang Qingli took on the role of a 
high-profile representative of the anti-Dalai Lama campaign in 
late 2005, when the Party's Central Committee transferred him 
to the TAR from the Xinjiang Uighur Autonomous Region.\85\ In 
an August 2006 interview with a Western magazine, Zhang 
attacked the Dalai Lama's Buddhist credentials, accusing him of 
being a ``false religious leader'' who has led Tibetans astray 
and done ``many bad things . . . that contradict the role of a 
religious leader'' since he fled into exile in 1959.\86\ Zhang 
urged the Party to ``clearly distinguish between proper 
religious activities and the use of religion to engage in 
separatist activities,'' an expression that can refer to 
peaceful expressions of religious devotion to the Dalai Lama. 
Zhang described the Party's conflict with the Dalai Lama and 
the ``Western hostile forces'' \87\ that support him as ``long 
term, sharp, and complex,'' and ``even quite intense at 
times.'' \88\
    Zhang rallied hundreds of Party members at a May 2007 
meeting in Lhasa, the capital of the TAR, telling them, ``From 
beginning to end . . . we must deepen patriotic education at 
temples, comprehensively expose and denounce the Dalai Lama 
clique's political reactionary nature and religious 
hypocrisy.'' \89\ Patriotic education (``love the country, love 
religion'')\90\ is an open-ended campaign to bring to an end 
the Dalai Lama's religious authority among Tibetans, and that 
requires Tibetan Buddhists to accept patriotism 
toward China as a part of Tibetan Buddhism. Patriotic education 
sessions require monks and nuns to pass examinations on 
political texts, agree that Tibet is historically a part of 
China, accept the legitimacy of the Panchen Lama installed by 
the Chinese government, and denounce the Dalai Lama.'' \91\ 
Monitoring organizations confirmed in 2007 that officials are 
increasing patriotic education activity in monasteries and 
nunneries.\92\ In one case, the abbot of a monastery in Qinghai 
province was forced to step down in May after he refused to 
sign a denunciation of the Dalai Lama.\93\
    In May 2006, Zhang called on TAR Party and government 
officials to intensify restructuring and ``rectification'' of 
Democratic Management Committees (DMCs),\94\ and to ``[e]nsure 
that leadership powers at monasteries are in the hands of 
religious personages who love the country and love religion.'' 
\95\ DMCs,\96\ located within each monastery and nunnery, are 
the Party's direct interface with monks and nuns, and are 
charged by the Party and government to implement policies on 
religion and ensure that monks and nuns obey government 
regulations on religious practice.
    An official poster reportedly displayed in a Tibetan 
Buddhist monastery in Sichuan province listed the DMC's main 
functions, including to ``[u]phold the leadership of the 
Chinese Communist Party, love the county and love religion, and 
progress in unity'' and to ensure that ``[n]o activities may be 
carried out under the direction of forces outside the 
country.'' \97\ The same document instructs the DMC on its 
``professional responsibilities,'' such as, ``To collectively 
educate the monastery's monks and religious believers to abide 
by the country's Constitution, laws, and all policies, to 
ensure the normal progression of religious activities, to 
protect the monastery's legal rights and interests, to 
resolutely oppose splittist activities, and to protect the 
unification of the motherland.'' \98\ The poster specified the 
subordinate relationship of the monastery to external, non-
religious agencies: ``The monastery should accept the 
administrative management of local village-level organizations, 
and accept the leadership of the Buddhist association.'' A 1991 
set of TAR measures regulating religious affairs described a 
Buddhist association as ``a bridge for the Party and government 
to unite and educate personages from religious circles and the 
believing masses.'' \99\

        TAR Measures Extend Party Control Over Tibetan Buddhism

    In January 2007, Zhang Qingli wrote in an issue of Seeking 
Truth that the TAR government must implement the national-level 
Regulation on Religious Affairs (RRA)\100\ in a manner that 
will ``ensure that the Constitution and laws enter the temple 
doors, the management system, and the minds of monks and 
nuns.'' \101\ There are more than 1,700 monasteries and 
nunneries in the TAR, and approximately 46,000 monks and nuns, 
according to official state-run media reports.\102\ As Zhang 
called on the Party to achieve comprehensive implementation of 
its policy on ``freedom of religious 
belief,'' which he said aims to ``actively guide religion to 
adapt to socialist society,'' \103\ the TAR Implementing 
Measures for the Regulation on Religious Affairs (TAR 2006 
Measures) were coming into effect.\104\
    The TAR 2006 Measures state a general formula for the 
relationship between the state and religion: ``All levels of 
the people's government shall actively guide religious 
organizations, venues for 
religious activities, and religious personnel in a love of the 
country and of religion, in protecting the country and 
benefiting the people, in uniting and moving forward, and in 
guiding the mutual adaptation of religion and socialism.'' The 
national-level RRA, effective in March 2005, does not contain 
such language.\105\
    The TAR 2006 Measures impose stricter and more detailed 
controls on TAR religious activity,\106\ which is mainly 
Tibetan Buddhist,\107\ than the RRA or the 1991 TAR Temporary 
Measures on the Management of Religious Affairs\108\ (TAR 1991 
Measures) that the TAR 2006 Measures replaced. The most 
forward-looking area of state intrusion into Tibetan Buddhist 
freedom of religion, and the most consequential to the future 
of the religion, is in the process of identifying, seating, and 
providing religious training to 
reincarnated Tibetan Buddhist lamas. The TAR 2006 measures 
provide five articles on the matter,\109\ compared to one each 
in the RRA\110\ and the TAR 1991 Measures.\111\ The RRA article 
includes language that seeks to compel Tibetan compliance with 
a 17th century Qing dynasty edict directing Tibetan religious 
leaders to identify reincarnations by drawing a name from an 
urn in the presence of an imperial Chinese official.\112\ The 
TAR 1991 Measures ban the involvement in the identification 
process of ``foreign forces,'' a 
reference to the traditional role of the Dalai Lama and other 
high-ranking Tibetan lamas now living in exile. [See the 
following subsection for information on national measures 
regulating Tibetan 
reincarnation issued in July 2007 and effective in September.]
    The TAR 2006 Measures establish additional Party and 
government controls,\113\ beyond those contained in the RRA or 
the TAR 1991 Measures, over the identification and education of 
reincarnated Tibetan Buddhist lamas in the TAR.

        <bullet> No organization or individual in the TAR may 
        attempt to identify a reincarnated lama without 
        approval from the TAR government.\114\
        <bullet> No one from the TAR may travel to another 
        province to attempt to identify a reincarnated lama (or 
        vice versa) until the TAR Buddhist association 
        (``religious organization'') consults with the 
        provincial-level Buddhist association in the other 
        province (or vice versa), and the TAR Buddhist 
        association reports the matter to the TAR 
        government.\115\
        <bullet> DMCs must plan and implement milestones in the 
        institutional advancement of reincarnated lamas, such 
        as the formal seating of a reincarnated lama at a 
        monastery, formally ordaining a reincarnated lama as a 
        monk, and promoting a reincarnated lama to advanced 
        levels of Buddhist study. Local government must 
        supervise such events.\116\
        <bullet> DMCs must draft, and reincarnated lamas must 
        submit to, ``practical measures for strengthening the 
        development, education, and management'' of 
        reincarnated lamas.\117\
        <bullet> DMCs must report to the local government the 
        names of a reincarnated lama's religious and cultural 
        teacher(s) after the DMC has proposed candidates to the 
        local Buddhist association and the association 
        consents.\118\

    The TAR 2006 Measures impose new requirements\119\ that 
eliminate freedom of movement for monks and nuns in the TAR if 
they travel for the purpose of teaching, studying, or 
practicing religion.\120\ Monks and nuns living in TAR 
monasteries and nunneries may not travel anywhere in the TAR 
for the purpose of practicing religion\121\ without carrying 
with them their ``religious personnel identification [card]'' 
and an unspecified form of ``proof'' provided by the county-
level government where they live, and reporting ``for the 
record'' to the county-level government where they wish to 
practice religion.\122\ Monks and nuns in the TAR may not 
travel to another TAR prefecture to study religion without 
first obtaining approval from the local government in the 
destination prefecture, and reporting the approval to the local 
government in the prefecture of origin.\123\ The TAR 1991 
Measures, in comparison, stated no requirements of monks and 
nuns who traveled between monasteries and nunneries in the TAR 
in order to practice or study religion. The TAR 1991 Measures 
contained one article addressing travel that required monks and 
nuns traveling from the TAR to another province for advanced 
Buddhist study or teaching Buddhism (or vice versa) to first 
obtain consent from the governments of the TAR and the other 
province.\124\
    Buddhist associations, monasteries, nunneries, monks, and 
nuns that violate provisions of the TAR 2006 Measures can face 
criminal or civil penalties under Chinese law, or expulsion 
from a monastery or nunnery.\125\ Authorities can, for example, 
initiate punishments for ``illegal activities such as those 
that harm national security or public security,'' a catch-all 
phrase that can include expressions of religious devotion to 
the Dalai Lama, or for sharing, viewing, and listening to any 
type of recorded media about him. The TAR 2006 Measures 
introduce an explicit ban on disseminating and viewing ``books, 
pictures, and materials that disrupt ethnic unity or endanger 
national security,'' and a ban on requests by ``religious 
followers'' for monks and nuns ``to recite from banned 
religious texts.'' \126\ Another punitive measure with 
potentially broad impact empowers local governments to order a 
``religious organization'' to ``disqualify'' as a registered 
religious professional a monk or nun who, in ``serious 
circumstances,'' does not fulfill regulatory requirements on 
travel.\127\
    A local government's use of regulations on religious 
affairs to 
enforce the demolition in May 2007 of a large, nearly completed 
statue of a ninth century Buddhist teacher, Padmasambhava (Guru 
Rinpoche),\128\ at the oldest Tibetan monastery, Samye,\129\ 
shows how the law can control religious practice, rather than 
protect religious freedom. Photographs available in one report 
appear to show that the 30-foot tall statue was constructed 
within the monastery's grounds.\130\ People's Armed Police 
(PAP) arrived at Samye, located in Shannan (Lhoka) prefecture 
in the TAR, and demolished the statue during the Buddhist holy 
month of Saga Dawa, according to an unofficial report.\131\ 
Private donors from Guangzhou city in Guangdong province paid 
800,000 yuan to have the statue constructed.\132\
    The RRA and TAR 2006 Measures introduce provisions 
prohibiting any group or individual not part of a state-
authorized religious organization or venue for religious 
activity from building such a statue.\133\ Both sets of 
provisions mandate the demolition of a religious statue that is 
erected without official approval, but the TAR 2006 Measures 
only address the matter if the statue is built outside 
monastery grounds.\134\ Because the statue was built on Samye's 
grounds by individuals who were not authorized members of an 
officially recognized religious institution, the local 
government could have invoked RRA provisions as a legal pretext 
to destroy the statue. In fact, an official Chinese media 
report provided a rough translation of a Samye DMC notice 
confirming the role of the RRA as well as the Law on Protection 
of Cultural Relics.\135\ The State Administration for Religious 
Affairs, the Ministry of Construction, and the China National 
Tourism Administration jointly issued a ``Notice of Illegally 
Building [an] Open[-air] Statue of Buddha,'' according to the 
DMC notice.\136\ Lodi Gyari, the Dalai Lama's Special Envoy, 
decried the statue's destruction, saying, ``This divisive and 
sacrilegious act by an atheist state has caused deep anguish 
among Tibetans in the region.'' \137\
    The total number of monasteries, nunneries, monks, and nuns 
that the TAR government tolerates could come under increased 
pressure, based on Zhang Qingli's statements in Seeking Truth. 
He described a ``bottom line'' for the number of locations for 
``religious activity'' (monasteries and nunneries) and of 
``full time religious persons'' (monks and nuns), and warned 
that, ``[H]aving satisfied the needs of the believer masses, 
there can be no indiscriminate building and recruiting.'' \138\ 
Zhang's comment could presage government action to assert more 
aggressively its role in limiting the size of the Tibetan 
Buddhist monastic establishment--which the TAR Party newspaper 
said in 1996 exceeded the number that the Party planned in 
1986, and created a negative impact on Tibetan social and 
economic development.\139\

     National Government Measures Take Control of Tibetan Buddhist 
                             Reincarnation

    The State Administration for Religious Affairs (SARA) 
issued a set of national measures in July 2007 (effective on 
September 1) that, if fully implemented, will establish 
government control over the process of identifying and training 
reincarnated Tibetan Buddhist teachers throughout China.\140\ 
Unlike the TAR 2006 Measures, the ``Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism'' 
\141\ (MMR) apply to the significant concentrations of Tibetan 
Buddhists in Qinghai, Gansu, Sichuan, and Yunnan provinces, as 
well as to the TAR. The total number of Tibetan Buddhist 
monasteries and nunneries in the TAR and the four provinces 
probably exceeds 3,300, based on official information, and the 
total number of monks and nuns may exceed 115,000 by several 
thousand.\142\ Each monastery hopes to have a reincarnated 
teacher in residence, although some monasteries have none and 
other monasteries have more than one. Based on official but 
incomplete information, the Commission estimates that the total 
number of reincarnated teachers in the Tibetan areas of China 
probably exceeds 1,000, and could reach or surpass 2,000.\143\
    The MMR will ``institutionalize management on reincarnation 
of living Buddhas,'' according to a SARA statement,\144\ and 
strengthen the subordination of traditional Tibetan Buddhist 
practices to Party policy: ``The selection of reincarnates must 
preserve national unity and solidarity of all ethnic groups and 
the selection process cannot be influenced by any group or 
individual from outside the country.'' The MMR could result in 
greater isolation between Tibetan Buddhist communities living 
in China and important Tibetan Buddhist teachers living in 
exile, especially the Dalai Lama, by using each instance of 
recognizing a reincarnated Tibetan teacher as an opportunity 
for the government to reinforce the barrier between Tibetan 
Buddhism in China and Tibetan Buddhists living in other 
countries.
    As elderly Tibetan Buddhist reincarnated teachers pass 
away, government enforcement of the MMR may prevent Tibetans 
from searching for and recognizing subsequent reincarnations, 
resulting in a decreasing number of reincarnated teachers. 
Article 3 requires that ``[a] majority of local religious 
believers and the monastery [Democratic Management Committee] 
must request the reincarnation'' before the search for a 
reincarnation may take place.\145\ DMCs are less likely to 
pursue a request for a reincarnation if local officials oppose 
it, and local authorities are well-positioned to hinder or 
discourage a majority of ``religious believers'' from 
expressing their desire to maintain a reincarnation in a local 
monastery. Article 4 disallows the recognition and seating of 
reincarnations within urban districts established by higher-
level governments if the urban district government issues a 
local decree banning further reincarnations.\146\ The Chengguan 
district under Lhasa municipality is currently the only urban 
district within the Tibetan autonomous areas of China.\147\ If 
the Chengguan district government issues such a decree, it 
could affect two of the largest and most influential Tibetan 
monasteries, Drepung and Sera,\148\ and the two oldest Tibetan 
Buddhist temples, Jokhang and Ramoche.
    The MMR establishes unprecedented government control\149\ 
over the principal stages of identifying and educating 
reincarnated Tibetan teachers, including:

        <bullet> Determining whether or not a reincarnated 
        teacher who passes away may be reincarnated, and 
        whether a monastery is entitled to seek to have a 
        reincarnated teacher in residence.\150\
        <bullet> Conducting a search for a reincarnation.\151\
        <bullet> Recognizing a reincarnation and obtaining 
        government approval of the recognition.\152\
        <bullet> Seating (installing) a reincarnation in a 
        monastery.\153\
        <bullet> Providing education and religious training for 
        a reincarnation.\154\

    The measures provide for punishment of individuals or 
offices that are responsible for a failure to comply with the 
measures, or that conduct activities pertaining to 
reincarnation without government authorization.\155\
    In August 2007, senior officials, including Liu Yandong, 
Head of the Communist Party United Front Work Department 
(UFWD), and Ye Xiaowen, Director of SARA, convened a national 
seminar in Beijing on ``Tibetan Buddhism work,'' and stressed 
that in the matter of seating Tibetan Buddhist reincarnated 
teachers, ``our own come first,'' according to a Singtao Daily 
report.\156\ The phrase underscores Party resolve to ensure 
that successful candidates for positions as reincarnated 
teachers will from now on fulfill the Party's political 
expectations, and that the Dalai Lama and other senior Tibetan 
Buddhist teachers living in exile will have no influence on the 
process.\157\ Officials at the seminar emphasized that the MMR 
must be implemented fully throughout the Tibetan areas of China 
and in the Inner Mongolia Autonomous Region, where many Mongols 
believe in Tibetan Buddhism. At an August 17-18 UFWD work forum 
in Lhasa, Director of the TAR UFWD, Lobsang Gyaltsen (Luosang 
Jiangcun), relayed the national guidelines to regional 
officials, and Zhang Yijiong, Deputy Secretary of the TAR Party 
Committee, called on attendees to ``thoroughly implement the 
policy of the [Party] on religious work'' and ``energetically 
unite the religious and patriotic forces.'' \158\

Number of Imprisoned Monks and Nuns Declines as Repression of Religion 
                               Increases

    Tibetan Buddhist monks and nuns constituted 11 of the 13 
known political detentions of Tibetans by Chinese authorities 
in 2006, compared to 21 of the 24 known such detentions in 
2005, and 8 of the 15 such detentions in 2004,\159\ based on 
data available in the Commission's Political Prisoner Database 
(PPD)\160\ as of September 2007. The increased proportion of 
monks and nuns that make up the total number of known political 
detentions evident in 2005 has not changed in 2006, and is 
likely to reflect monastic resentment against the intensified 
patriotic education campaign. The total number of known 
detentions of monks and nuns, however, has declined in 
comparison with 2005. The unusual shift of political detention 
of monks and nuns away from Sichuan province in 2005,\161\ when 
none were reported, was short lived. Nine of the 13 known 
political detentions of Tibetan monks and nuns in 2006 took 
place in Sichuan province; the rest occurred in the TAR.
    The extent to which the apparent decline in political 
detention of monks and nuns in 2006 reflects actual 
circumstances, or incomplete information, or both, is unknown. 
It is possible that the Party and government's increased 
repression of Tibetan Buddhism since 2005 (especially of 
aspects of the religion that involve the Dalai Lama) has 
produced the result that the government desires: a more subdued 
monastic community. Fewer monks and nuns may be risking 
behavior that could result in punishments such as imprisonment 
or expulsion from a monastery or nunnery (a prospect that may 
increase under the TAR 2006 Measures). At the same time, it is 
likely that the actual number of detained monks and nuns is 
higher than PPD data indicates.\162\ Reports of detention of 
unnamed persons,\163\ or of persons who are reported as 
missing,\164\ are not listed along with reports of detention 
that include detailed information. Irrespective of the actual 
number of recent detentions, the high proportion of monks and 
nuns among them, and recent statements by monks and nuns 
describing their frustration with government management of 
Tibetan Buddhism,\165\ suggests that the level of monastic 
resentment against Chinese religious policies remains high. 
Repressive policies can result in a decline of behavior that 
triggers punishment, but a high level of frustration suggests 
that the potential for a resurgence of political protest 
exists.
    Tibetan monks and nuns make up about 64 of the 100 known 
currently detained or imprisoned Tibetan political prisoners, 
according to PPD data current in September 2007. Twenty-eight 
of the monks and nuns were detained or imprisoned in the TAR, 
24 in Sichuan province, 7 in Qinghai province, and 4 in Gansu 
province. Based on data available for 42 currently imprisoned 
Tibetan monks and nuns, their average sentence length is 10 
years and 4 months.

       No Progress on Access to (or Freedom for) the Panchen Lama

    The Chinese government continues to refuse to allow access 
by an international organization, such as the International Red 
Cross, to Gedun Choekyi Nyima, the boy the Dalai Lama 
recognized as the Panchen Lama in May 1995.\166\ Chinese 
officials continue to hold him in incommunicado custody along 
with his parents at an unknown location. Gedun Choekyi Nyima 
turned 18 years of age in April 2007, and in May he completed 
his 12th year in custody. Chinese officials claim that Gedun 
Choekyi Nyima is leading a ``normal, happy life and receiving a 
good cultural education.'' \167\ After the Dalai Lama announced 
his recognition of Gedun Choekyi Nyima, Chinese officials took 
the then six-year-old boy and his parents into custody. The 
State Council declared the Dalai Lama's announcement ``illegal 
and invalid'' \168\ and installed Gyaltsen Norbu,\169\ whose 
appointment continues to stir widespread resentment among 
Tibetans. Chinese authorities may punish or imprison Tibetans 
who possess photographs of Gedun Choekyi Nyima or 
information about him.

   Incidents of Repression of Freedom of Religion in Tibetan Secular 
                                Society

    Chinese government repression of freedom of religion is not 
limited to the Tibetan Buddhist monastic community, and 
adversely affects secular Tibetan society. Most Tibetans are 
not monks or nuns--they are farmers, herders, workers, traders, 
business operators, professionals, students, teachers, and 
government staff. In the TAR about 98 percent of Tibetans live 
in secular society.\170\ Official repression of Tibetan 
Buddhist activity by secular Tibetans principally targets the 
Dalai Lama, Tibetan religious devotion to him, and aspects of 
Tibetan Buddhism closely linked to him, especially certain 
ceremonies and observances associated with the Gelug tradition 
of Tibetan Buddhism.\171\ Tibetans who follow other traditions 
of Tibetan Buddhism, such as the Kargyu, Sakya, and Nyingma 
traditions, especially in Tibetan areas outside the TAR, may 
experience less interference from authorities.\172\
    Chinese authorities routinely seek to prevent Tibetans from 
participating in religious observances that they suspect 
signify Tibetan devotion to the Dalai Lama. For example, the 
Lhasa Evening News published a Lhasa Party Committee notice on 
December 12, 2006, that forbids government employees, workers 
in government-run businesses, and school students to 
participate in a Tibetan Buddhist observance, Gaden Ngachoe, 
that would take place three days later.\173\ The notice warned, 
``Everyone must conscientiously respect the government and 
Party committee's demand.'' Tibetans traditionally light butter 
lamps to mark the occasion.
    The Lhasa Party Committee in May 2007 forbade Tibetan 
school children in some Lhasa neighborhoods from participating 
in 
Tibetan Buddhism's most holy day, Saga Dawa,\174\ or wearing 
``amulet threads'' (blessing strings) received at Buddhist 
sites.\175\ Beginning in the late 1980s, when Tibetans staged a 
series of public 
protests against Chinese policies, the Lhasa government has 
attempted to prevent Tibetans employed in the government sector 
and Tibetan students from participating in Saga Dawa.\176\ The 
prohibition continued in 2006, when the government threatened 
to fire government employees who defied the ban, according to a 
U.S. Department of State report.\177\
    Tibetans living in the Lhasa area, as well as throughout 
the TAR and in Tibetan autonomous areas of Qinghai, Gansu, and 
Sichuan provinces, openly celebrated the Dalai Lama's July 6 
birthday in 2007,\178\ despite government characterization of 
such celebration as ``illegal'' \179\ and effective enforcement 
of a ban in previous years.\180\ Some Tibetans reportedly 
believed that the turnout in 2007 represented Tibetan 
celebration of the Dalai Lama's receipt of the Congressional 
Gold Medal, scheduled for October 2007.\181\


     TIBETAN CULTURE UNDER CHINESE DEVELOPMENT POLICY AND PRACTICE


Commission Reports and Recommendations: Tibetan Culture in a Developing 
                                  West

    CECC Annual Reports issued since 2002 document that Chinese 
government development policy and implementation, especially of 
the Great Western Development (GWD) program,\182\ increase 
pressure on the Tibetan language and culture, and erode the 
Tibetan people's ability to preserve their heritage and self-
identity.

        <bullet> The 2002 Annual Report observed that GWD ``has 
        the most profound implications for western China of any 
        official policy formulation to emerge in the post-Deng 
        era.'' \183\ The report identified the Qinghai-Tibet 
        railway, then in its second year of construction,\184\ 
        as the project causing the greatest alarm for Tibetans. 
        An expert told the Commission, ``The new railway to 
        Tibet will only intensify existing migratory trends, 
        exacerbate ethnic income disparities, and further 
        marginalize Tibetans in traditional economic 
        pursuits.'' \185\
        <bullet> In 2003, the Annual Report stated, ``The 
        majority of Tibetans, who live in rural areas, benefit 
        little from central government investment in the 
        Tibetan economy. Most of this investment supports 
        large-scale construction and government-run enterprises 
        in which Han control is predominant.'' \186\ Tibetans 
        must have access to significantly improved educational 
        resources if they are to adapt successfully to their 
        new environment, and if their culture is to survive, 
        then the Tibetan language must play an important role 
        in their education, the report said.\187\
        <bullet> In 2004, the Annual Report noted that 
        ``existing policy initiatives are gaining momentum, 
        especially the Great Western 
        Development program, formulated to accelerate economic 
        development in China's western provinces and speed 
        their integration into the political and social 
        mainstream.'' \188\ The report warned that government 
        policies ``promote strict adherence to a national 
        identity defined in Beijing [and] discourage Tibetan 
        aspirations to maintain their distinctive culture and 
        religion.'' \189\
        <bullet> The 2005 Annual Report showed that Chinese 
        government statistics on educational achievement 
        demonstrate that few Tibetans are prepared to compete 
        for employment and business opportunities in the Han-
        dominated economic environment developing around 
        them.\190\ Urban Tibetans reached senior middle school 
        at 19 times the rate of rural Tibetans, the report 
        said, but rural Tibetans are the largest and least 
        prepared category of Tibetans competing for 
        opportunities created by government economic 
        development programs.\191\
        <bullet> The release of the 2006 Annual Report followed 
        the start of operation of the Qinghai-Tibet railway. 
        The report noted ``increasing Tibetan concerns about 
        the railway's potential effects on the Tibetan culture 
        and environment,'' \192\ and explained why Chinese law, 
        government and Party policies, and official statements 
        increase Tibetan concerns that programs such as GWD and 
        projects such as the Qinghai-Tibet railway will lead to 
        large increases in Han migration.\193\

    The Commission responded to the concerns and needs of 
Tibetans in China by recommending increased funding for U.S. 
NGOs to develop programs that ``improve the health, education, 
and 
economic conditions of ethnic Tibetans.'' A Commission 
recommendation in 2003 stressed that such programs should 
``create direct, sustainable benefits for Tibetans without 
encouraging an influx of non-Tibetans into these areas.'' \194\

  GWD Era Laws and Regulations Tend To Pressure, Not Protect, Tibetan 
                                Culture

    Changes in Chinese laws and regulations that address ethnic 
autonomy issues and that have been enacted during the period of 
GWD tend to decrease the protection of ethnic minority language 
and culture. The stated purpose of GWD is to ``accelerate 
economic and social development of the western region and the 
minority nationality regions in particular.'' \195\ TAR Party 
Secretary Zhang Qingli asserted that as the result of such 
policies, ``Tibet is in [the] best period of development and 
stability in its history.'' \196\ President and Party General 
Secretary Hu Jintao, who served as the TAR Party Secretary from 
1988-1992,\197\ affirmed support for GWD and the importance of 
``the issue of coordinated regional development'' when he met 
TAR delegates to the NPC in March 2007.\198\ Laws and 
regulations such as the following have resulted in a trend of 
increasing cultural, linguistic, and economic pressure on 
ethnic minorities.
    The National People's Congress (NPC) amended the 1984 
Regional Ethnic Autonomy Law (REAL)\199\ in 2001, bringing the 
law into conformity with more recent trends in Party policy. 
Amendments added extensive language guiding issues that include 
economic development, natural resource exploitation, 
infrastructure construction, financial and fiscal management, 
recruiting cadres, professionals, and workers from other parts 
of China to ``Go West,'' establishing cooperative development 
projects between other parts of China and the GWD area, and 
improving the education system for ethnic minorities.\200\ [See 
Section II--Ethnic Minority Rights for more information on the 
REAL.]
    The amended REAL increased state support for ethnic 
minority education but lessened the state's commitment to the 
constitutionally protected task of preserving and using ethnic 
minority languages.\201\ The 1984 REAL required the state to 
set up ``institutes of nationalities and, . . . nationality 
oriented classes and preparatory classes which only enroll 
students from minority nationalities.'' \202\ The amended REAL 
requires such institutes to ``enroll only or mostly students 
from ethnic minorities,'' \203\ potentially reducing the level 
of use of ethnic languages within such institutes. Another 
result is that ethnic minorities must compete academically with 
Han who enroll in ethnic minority institutes, and compete with 
them for jobs after graduation.\204\ The 1984 REAL authorized 
the state to introduce for ethnic minorities ``[p]referred 
enrollment and preferred assignment of jobs,'' \205\ a form of 
assistance that can help Tibetans and other minorities to 
compete for employment in an emerging market economy that 
attracts an increasing number of Han who have better 
educations.\206\ The amended REAL, however, removed the 
language that authorized the preferential treatment for ethnic 
minorities.\207\
    The Provisions of the State Council for Implementing the 
REAL,\208\ issued in May 2005, promote a key GWD strategy:\209\ 
encouraging professionals, experts, and workers in China's 
populous areas to ``Go West'' along with their families to 
``develop and pioneer in ethnic autonomous areas.'' \210\ The 
amended REAL itself provides the basis for establishing 
implementing provisions that provide incentives for population 
movement into autonomous areas where Tibetans and other ethnic 
groups live by authorizing local autonomous governments to 
provide ``preferential treatment and encouragement'' to 
``specialized personnel joining in the various kinds of 
construction in these areas.'' \211\ Minister Li Dezhu of the 
State Ethnic Affairs Commission (SEAC) warned in 2000 that 
implementation of the GWD and the resulting westward population 
flow could cause ``possible trouble'' in ethnic relations. He 
wrote in Seeking Truth that ``some changes in the proportions 
of the nationalities'' would take place and that ``conflicts 
and clashes'' could occur between ethnic groups.\212\
    The State Council Legislative Affairs Office is reportedly 
preparing a draft law for submission to the NPC that ``aims to 
create a favorable legal environment and support for a smooth 
implementation'' of GWD, according to a March 2006 statement by 
Wang Jinxiang, the Vice Minister of the National Development 
and Reform Commission and the Deputy Director of the State 
Council Office of the Leading Group for Western Region 
Development.\213\ Wang said that the Legislative Affairs Office 
was working on the 14th version of the draft and that he 
believed completion of the draft was ``imminent.'' No updated 
information is available about the progress of the bill.
    Protection for the Tibetan language has also decreased 
under autonomy regulations enacted during the GWD period. In 
2002, the TAR People's Congress revised the 1987 TAR 
Regulations on the Study, Use, and Development of the Tibetan 
Language,\214\ ending the precedence of the Tibetan language by 
authorizing the use of ``either or both'' of Mandarin and 
Tibetan languages in most areas of government work.\215\ A 1998 
government White Paper stated, ``Guaranteeing the study and use 
of the Tibetan language is an important aspect of safeguarding 
the Tibetan people's right to autonomy and exercising their 
right to participate in the administration of state and local 
affairs.'' \216\ The then-current regulation ``clearly 
specifies that both Tibetan and Chinese should be used in the 
Tibet Autonomous Region, with precedence given to the Tibetan 
language,'' according to the White Paper.

 Qinghai-Tibet Railway Carries 1.5 Million Passengers Into the TAR in 
                               First Year

    The Qinghai-Tibet railway, officially designated a key GWD 
project,\217\ ``transported 1.5 million passengers into Tibet'' 
during its first year of operation (ending on June 30, 2007), 
according to a July report.\218\ The government issued no 
public reports of major incidents or accidents linked to the 
railway's operation during the year. Advocacy organizations 
have expressed publicly\219\ what Tibetans in China say 
privately, that the railway will facilitate a surge of non-
Tibetans into Tibetan autonomous areas, altering the 
demographic and economic structure of the region, and further 
increasing pressure on Tibetan culture and on Tibetans as they 
compete for jobs and other economic benefits.\220\ Jampa 
Phuntsog (Xiangba Pingcuo), Chairman of the TAR government, 
claimed in June 2007 that such a threat does not exist, and 
that Tibetans in the TAR would not face assimilation into 
Chinese culture (``Han culture'').\221\
    State-run media reports about the Qinghai-Tibet railway 
generally apply the terms ``passenger'' and ``tourist'' 
interchangeably to persons traveling to the TAR, and provide 
little information about how many passengers arrive in the TAR 
for purposes other than tourism. For example, the July report 
of ``1.5 million passengers'' describes them as ``nearly half 
of the total tourist arrivals in the region.'' \222\ At that 
rate of arrival, nearly 4,100 passengers arrived in the TAR 
each day. That figure accords closely with a May 2006 statement 
by the China Tibet Tourism Bureau (before railway operations 
began) that the railway would ``transport an additional 4,000 
tourists to Tibet each day.'' \223\ The July report's portrayal 
of the 1.5 million passengers as ``tourists'' making up nearly 
half the total tourist arrivals is also consistent with 
information in other official reports: there were a total of 
3.6 million tourist arrivals in 2006 and the first six months 
of 2007.\224\
    The Commission is aware of one official Chinese media 
report that less than half of the Lhasa-bound Qinghai-Tibet 
railway passengers were tourists during the height of the 
tourist season after the railway began service. Midway into 
September 2006, the railway's third month of operation, Jin 
Shixun, the Director of the TAR Committee of Development and 
Reform, provided information about the occupational categories 
of passengers--60 percent were business persons, students, 
transient workers, traders, and individuals visiting relatives; 
40 percent were tourists.\225\ Jin's remark was based on 
270,000 passengers over a period of approximately 75 days, or 
about 3,600 passengers per day. If a similar proportion 
prevailed throughout the remainder of the first year of 
operation, then approximately 900,000 of the 1.5 million 
passengers could have been non-tourists, and hundreds of 
thousands of them could have been non-Tibetan business persons, 
workers, and traders who intended to remain for a period in the 
TAR. An October 2005 report by China's state-run media also 
acknowledged that the railway will ``attract tourists, traders, 
and ethnic Chinese settlers'' to the region.\226\
    A Tibetan resident of Lhasa told a radio call-in show in 
July 2007 that ``Tibetans in Lhasa have been overwhelmed by the 
frightful explosion of the Chinese population in the city.'' 
\227\ The caller said that ``wherever you go, you get the 
impression of overcrowding.'' Tibetans ``[witness] Chinese 
tourists becoming permanent residents,'' she said, and reported 
that ``Chinese migrants were moving fast into formerly Tibetan 
neighborhoods and businesses.'' Another Tibetan caller from 
Lhasa said ``there is deep skepticism about the aim and whose 
purpose [the railway] is serving,'' and asserted that ``the 
Tibetans are certainly not the direct beneficiaries.'' The 
first caller acknowledged that Tibetan traders are doing more 
business, but she said those benefits are ``insignificant if 
you take the whole picture of Chinese benefits in terms of 
business and employment into account.'' \228\ An NGO reported 
in early August that Chinese fleeing flooded areas of the 
country were ``pouring into Tibet'' on the Qinghai-Tibet 
railway, and that thousands of unemployed migrants roamed Lhasa 
looking for work.\229\ The ``unprecedented movement of Chinese 
migrants to Lhasa,'' which started in July, ``has put pressure 
on the local Tibetans and their day-to-day livelihood,'' 
according to the report.
    Inadequate information provided by the Chinese government 
about passengers traveling on the Qinghai-Tibet railway hampers 
objective assessment of the railway's alleged role in 
accelerating the influx of non-Tibetan residents into the 
region. Existing examples of the establishment of rail links to 
remote regions in China indicate that significant changes to 
the proportions of ethnic groups occur over time. Rail links 
were built into what is now the Inner Mongolia Autonomous 
Region (IMAR) before the PRC was established;\230\ a railway 
reached Urumqi, the capital of the Xinjiang Uighur Autonomous 
Region (XUAR), in 1962; the railway arrived in Kashgar, in the 
western XUAR, in 1999.\231\ Based on official 2000 census data, 
the ratio of Han to Mongol in the IMAR is 4.6 Han to 1 Mongol. 
In the XUAR the ratio of Han to Uighur is 0.9 Han to 1 Uighur. 
The ratio of Han to Tibetans in the TAR stood at 0.07 Han to 1 
Tibetan in 2000, according to census data.\232\ Tibetans are 
concerned that the Qinghai-Tibet railway will facilitate 
changes in Tibetan areas of China similar to those in the IMAR 
and XUAR.

 Rebuilding the Tibetan Countryside: Allegations of Forced Settlement, 
                               Re-housing

    Another Party-led program linked to GWD and the anti-Dalai 
Lama campaign aims to end a way of life that is iconic among 
Tibetans and that has survived for centuries: nomadic 
herding.\233\ A government program gathered momentum last year 
that aims to build a ``beautiful, new socialist countryside'' 
\234\ and requires nomads to give up their traditional 
lifestyle and grazing lands to live in fixed settlements, or 
find other work. Similar programs affecting herders in Qinghai, 
Gansu, Sichuan, and Yunnan provinces are underway.\235\ A TAR 
government program underway is moving Tibetan farmers into new 
housing in reorganized communities. TAR Party Secretary Zhang 
Qingli said that such steps would result in a ``harmonious 
society.'' \236\ Party General Secretary Hu Jintao\237\ advised 
TAR delegates, including Zhang, attending the NPC in March 2007 
that ``maintaining social harmony and stability is the 
premise'' for economic and social development in the TAR.\238\
    Zhang Qingli said in the January 2007 issue of Seeking 
Truth that the Party's determination to restructure Tibetan 
farming and grazing communities is not only to promote economic 
development, but also to counteract the Dalai Lama's 
influence.\239\ Zhang said that to do so is essential for 
``continuing to carry out major development of west China'' 
(e.g., GWD), and pointed out that 80 percent of the TAR 
population are farmers and herders. ``[Farmers and herders 
`living and working in peace and contentment'] is the 
fundamental condition for us in holding the initiative in the 
struggle against the Dalai clique,'' Zhang said.\240\ He listed 
Party objectives including to construct permanent housing for 
nomadic herders, improve farmers' housing, relocate farmers' 
housing to achieve poverty relief, and ensure that 80 percent 
of TAR farmers and herders are in ``safe and suitable'' housing 
within five years. Zhang called on the Party to support 
measures to ``actively organize'' Tibetan farmers and herders 
to move to towns or urban areas to find employment, set up 
businesses, or seek training in other skills.\241\
    The Chinese government has implemented policies since 2000 
(the year that GWD was implemented) to confiscate herders' 
land, erect fencing, and resettle herders, and has intensified 
the policies in some areas since 2003, Human Rights Watch (HRW) 
reported in June 2007.\242\ Guolou (Golog) and Yushu Tibetan 
Autonomous Prefectures (TAPs) in Qinghai province are the areas 
most severely affected by implementation.\243\ The report 
acknowledges that China faces environmental crises, and that 
Chinese officials have explained that removing herds from 
traditional pastures will benefit the environment,\244\ but the 
report asserts that ``there are grounds for disputing both who 
is responsible for those crises and the consequent actions 
taken by the government in the name of protection in Tibetan 
areas.'' \245\
    The resettlement program has subjected herders to 
compulsory or forced resettlement, compulsory livestock 
reduction, bans on grazing, compulsory change of land use, and 
evictions to make way for public works schemes, the HRW report 
asserts.\246\ Chinese 
authorities failed to consult adequately with the affected 
herders, provide them with adequate compensation, or allow them 
adequate options for complaint, thereby failing to fulfill 
requirements under the Chinese Constitution, according to the 
report.\247\ ``Claims of nonpayment are endemic, and there are 
also allegations of corruption and discrimination in the 
compensation process,'' according to HRW.\248\
    The number of Tibetans affected by forced resettlement is 
unknown but it ``clearly runs into the tens, if not hundreds, 
of thousands,'' according to the HRW report.\249\ The 
Commission's 2006 Annual Report reported that TAR authorities 
relocated 48,000 herders and settled them in fixed communities 
in the period 2001-2004,\250\ that a government program in 
Qinghai province to settle herders (including Tibetans) placed 
about 10,000 families in fixed communities by 2005,\251\ and 
that a Gansu province program started in the late 1990s to 
settle herders in Tibetan autonomous areas settled 7,000 
families by 2004 and is expected to be complete in 2009.\252\
    TAR government Chairman Jampa Phuntsog stated in June 2007 
that ``no forced resettlement has been done'' in the TAR, and 
he provided details about some cases of relocation.\253\ He 
acknowledged that the TAR government had ``displaced some 7,000 
people who lived at the source of the Yangtze River'' in 
Changdu (Chamdo) prefecture and resettled them in Linzhi 
(Kongpo) prefecture. He claimed that the government had 
``respected the will of the people'' in doing so. In addition, 
the TAR was seeking to move dozens of herding families out of 
the Hol Xil Natural Reserve, but not all of them had agreed to 
leave. ``We are still trying to persuade them to move, and they 
will only be relocated when they agree to,'' Jampa Phuntsog 
said.\254\
    The TAR government launched a program in 2006, concurrent 
with the region's 11th Five-Year Plan, to move Tibetan farmers 
and herders into new housing.\255\ In the first year of 
operation, the program moved 56,000 households with 290,000 
members into new houses.\256\ Zhang Qingli personally led the 
effort, according to state-run media, and when the program 
concludes in 2010, it will have moved 220,000 families into new 
homes.\257\ Based on an average household size of 5.2 persons 
(suggested by the preceding data), the total number of Tibetans 
moved into new housing by 2010 could be approximately 1.14 
million--more than half of the total number of Tibetan rural 
residents in the TAR at the time of the 2000 census.\258\
    Reports by advocacy groups and official Chinese media 
organizations on whether or not Tibetan participation in the 
housing program is voluntary, and the consequences of the 
financial burden on Tibetan farmers and herders, differ 
sharply. Zhang Qingli said in March 2007 that county- and 
prefecture-level governments offer each household a subsidy to 
defray 10,000-25,000 yuan (US$1,300-US$3,300) of the estimated 
60,000 yuan (US$8,000) cost of a house, with Tibetan 
householders paying the rest.\259\ Construction is on a 
``strictly volunteer basis,'' Zhang claimed.\260\ HRW reported 
in December 2006 that the program requires villagers, 
``particularly those who live next to main roads,'' to rebuild 
their homes ``in accordance with strict official specifications 
within two to three years.'' \261\ The government does not 
subsidize the cost of the house, according to HRW, but lends 
Tibetans between 20 and 25 percent of the cost to 
householders.\262\
    Tibetan farmers and nomads, whose 2,435 yuan average per 
capita income in 2006 places them among China's poorest 
citizens,\263\ generally do not have savings or other capital 
resources equal to several years of income, so they face 
difficulty in paying for the government-mandated housing. 
``Nearly all must therefore supplement these funds with 
considerable bank loans,'' HRW said. Even relatively wealthy 
households have been ``forced into debt,'' and borrowers who 
default on loans forfeit the right to occupy the house, 
according to the report.\264\ None of the Tibetans interviewed 
by HRW reported that they had a right to challenge the program 
or refuse to participate in it. Some Tibetans described 
incidents in which local authorities demolished Tibetan homes 
after residents refused to participate in the program, or who 
said that they could not participate because they could not 
borrow enough money to pay for a new home. According to a June 
2007 foreign media report, the relocated villages are ``cookie-
cutter'' in style, and even though farmers did not appear to be 
happy, they were ``reluctant to complain.'' \265\
    Local government officials in a village in Dingri county, 
located in Rikaze (Shigatse) prefecture in the TAR, threatened 
to punish households that failed to build a new home, according 
to a May 2007 Tibetan Centre for Human Rights and Democracy 
(TCHRD) report.\266\ Officials told the villagers that they 
should improve their village before the 2008 Olympics so that 
it will be more attractive to tourists. The government offered 
to contribute 10,000 yuan toward houses that must cost a 
minimum of 20,000 yuan, but villagers in the area are so poor 
that only 4 of the 34 households built houses.\267\ Three of 
the four households had to secure a bank loan in order to match 
the government's 10,000 yuan contribution. ``The new houses do 
not reflect the better living standards of Tibetan people, they 
are not happy in the new houses built upon debts, [and] they 
are more worried than ever about how to repay the loans to 
banks,'' TCHRD's source said.\268\


 PUNISHING PEACEFUL TIBETAN EXPRESSION UNDER CHINA'S CONSTITUTION AND 
                                  LAW


          Commission Reports, China's Record on Tibetan Rights

    Commission Annual Reports issued since 2002 document that 
the Chinese government applies the Constitution and law in a 
manner that restricts and represses the exercise of human 
rights by Tibetans, and that uses the law to punish peaceful 
expression and action by Tibetans as threats to state security. 
The Chinese government, and governments in the TAR and other 
provinces where Tibetans live, made no progress in the past 
year toward improving the right of Tibetans in China to 
exercise their constitutionally guaranteed freedoms of 
religion, expression, and assembly. Such restrictions are 
inconsistent with the Chinese government's obligations under 
international human rights standards.\269\ Instead, Communist 
Party political campaigns promote atheism and strengthen 
government efforts to discourage Tibetan aspirations to foster 
their unique culture and heritage. [See Section II--Freedom of 
Religion.]

        <bullet> The 2002 Annual Report observed that the 
        Chinese government seeks to maintain unity and 
        stability\270\ by ``constraining Tibetan political, 
        cultural, educational, and religious life,'' and that 
        human rights and the rule of law in Tibetan areas of 
        China are configured to serve government and Party 
        interests.\271\
        <bullet> In 2003, the Annual Report noted that friction 
        remains between Tibetan aspirations to maintain their 
        distinctive culture and religion and Chinese policies 
        favoring atheism and emphasizing the primacy of 
        national identity. China represses peaceful expression 
        that it considers ``splittist,'' or that it deems to be 
        ``detrimental to the security, honor, and interests of 
        the motherland.'' \272\
        <bullet> The 2004 Annual Report observed that China 
        represses or punishes peaceful expression by Tibetans 
        that authorities deem to ``endanger state security'' 
        even if the expression is non-violent and poses no 
        threat to the state. An official in Beijing told 
        Commission staff in September 2003, ``There is not a 
        distinct line between violent and non-violent. . . . A 
        non-violent action can result in eventual violence.''
        <bullet> The 2005 Annual Report noted the downward 
        trend in the number of known Tibetan political 
        prisoners, and suggested, ``Tibetans are avoiding the 
        risks of direct criticism or protest against Chinese 
        policies and are turning to education, arts, and 
        religion for ways to express and protect their culture 
        and heritage.'' But as incidents of protest declined, 
        Chinese authorities watched for other signs of Tibetan 
        resentment or nationalism.
        <bullet> In 2006, the Annual Report provided additional 
        information on how Tibetans appear to be avoiding the 
        risks of direct 
        protest against government policies and turning to 
        other methods of cultural expression. After the Dalai 
        Lama told Tibetans in India, ``Neither use, sell, or 
        buy wild animals, their products or derivatives,'' 
        Tibetans in China staged public events in which they 
        burned rare furs stripped from traditional Tibetan 
        garments.\273\

Political Imprisonment of Tibetans: Peaceful Expression and Non-Violent 
                  Action as Threats to State Security

    Chinese authorities continue to detain and imprison 
Tibetans for peaceful expression and non-violent action, 
charging them with crimes such as ``splittism,'' \274\ and 
claiming that their behavior ``endangers state security.'' 
\275\ [See Section II--Rights of Criminal Suspect and 
Defendants--Law in Action: Abuses of Criminal Law and 
Procedure.] Expression or action that is linked to the Dalai 
Lama is especially likely to result in such charges. Chinese 
officials have punished Tibetans, such as Jigme Gyatso, a 
former monk imprisoned in 1996 who is serving an 18-year 
sentence\276\ for printing leaflets, distributing posters, and 
later shouting pro-Dalai Lama slogans in prison, and Choeying 
Khedrub, a monk serving a life sentence since 2000 for printing 
leaflets, for peaceful expressions and non-violent actions that 
officials believe could undermine Party rule. Two Tibetans 
sentenced along with Choeying Khedrub, monk Yeshe Tenzin and 
builder Tsering Lhagon, are serving sentences of 10 and 15 
years respectively on the same charges.
    Possessing photographs or copies of religious teachings of 
the Dalai Lama can result in imprisonment for endangering state 
security (by ``inciting splittism'') for up to five years, 
especially if a Tibetan carries such material across the 
international border into the TAR, an official of the Rikaze 
(Shigatse) Prefecture Intermediate People's Court, located in 
the TAR, confirmed in 2005.\277\ ``Any document that relates to 
Tibetan independence, Dalai Lama photos, or any other documents 
or literature containing reactionary themes or subjects are 
punishable,'' he said. In February 2007, the Rikaze court 
sentenced a Tibetan man, Penpa, to three years' imprisonment 
after police searched his home and confiscated audio recordings 
of the Dalai Lama conducting a Buddhist teaching in India.\278\ 
Local authorities became suspicious of Penpa when they learned 
that he was saving sheep from the slaughterhouse as a religious 
offering dedicated to the Dalai Lama's long life.\279\
    Public security officials detained a total of nine Tibetans 
in Ganzi (Kardze) Tibetan Autonomous Prefecture (TAP), Sichuan 
province, none of whom authorities accused of violent activity, 
between March and August 2006, according to reports issued 
between June and September.\280\ Officials detained six of the 
Tibetans for alleged roles in printing and distributing pro-
independence leaflets in late May: Kayo Doga (a layman in his 
late-50s, previously sentenced to three years of reeducation 
through labor in 2002 for his role in arranging a prayer 
ceremony for the Dalai Lama's long life); Yiga (Kayo Doga's 
daughter, a former nun); nuns Sonam Lhamo, Sonam Choezom (or 
Sonam Choetso), and Jampa Yangzom (or Jampa Yangtso); and Yiga, 
a female middle-school student. According to an unofficial 
source, a Ganzi county court issued a notice that all six 
detainees, including the minor, Yiwang, would face trial and 
that formal arrest had taken place.\281\
    In separate incidents reported by unofficial sources 
involving the seventh and eighth Ganzi detentions, officials 
detained monk Namkha Gyaltsen of Gepheling Monastery in March 
2006 for allegedly painting pro-independence slogans on 
government buildings (or putting up pro-independence posters), 
and monk Lobsang Palden, also of Gepheling, on August 15 after 
authorities searched his room and found ``incriminating 
documents'' including photos of the Dalai Lama.\282\ Namkha 
Gyaltsen allegedly confessed and may face a sentence of seven 
to eight years, and officials formally arrested Lobsang Palden 
on September 6 on charges of inciting splittism. In the ninth 
reported Ganzi detention, public security officials searched 
the living quarters of Jinpa, the abbot of Taglung Monastery, 
located in Seda (Serthar) county in Ganzi TAP, in 
August 2006, according to an unofficial report.\283\ The 
officials reportedly found nothing that they considered to be 
illegal, but they detained Jinpa nonetheless, possibly in 
connection with pro-independence posters that appeared in the 
monastery a year earlier.
    Public security officials based at Sera Monastery in Lhasa 
detained monk Gyaltsen Namdrag in May 2006 on suspicion that he 
distributed pro-independence pamphlets, according to an 
unofficial report.\284\ The Lhasa Intermediate People's Court 
sentenced him in October to five years' imprisonment on charges 
of endangering state security (probably ``inciting 
splittism''). Gyaltsen Namdrag is reportedly serving his 
sentence at Qushui Prison, according to the report.
    The Lhasa Intermediate People's Court sentenced tailor 
Sonam Gyalpo to 12 years' imprisonment for espionage on June 9, 
2006,\285\ following a search of his Lhasa home in August 2005 
by state security officials who discovered photos and 
videotapes of the Dalai Lama and printed matter, according to 
an unofficial report.\286\ Sonam Gyalpo allegedly made contact 
with the Tibetan government-in-exile in the 1990s and engaged 
in pro-independence activity in the TAR, according to official 
Chinese information reported by Dui Hua Dialogue in April 
2007.\287\ Sonam Gyalpo was 1 of about 10 Tibetans detained 
before the 40th anniversary of the TAR on September 1, 2005, 
according to another unofficial report.\288\ He was reportedly 
imprisoned twice previously for a total of nearly four years as 
punishment for political activity,\289\ and is serving his 
current sentence in Qushui Prison.\290\
    Official Chinese information confirmed the detention of 
Lhasa school teacher Drolma Kyab in March 2005, his conviction 
on charges of espionage and illegally crossing the border, and 
his sentence of 10 years and 6 months' imprisonment after he 
authored a manuscript touching on sensitive political 
subjects.\291\ The unpublished book contained 57 chapters on 
subjects such as ``democracy, sovereignty of Tibet, Tibet under 
[C]ommunism, colonialism, [and] religion,'' according to an 
unofficial report.\292\ Drolma Kyab had started a second work 
that focused on Tibetan geography and that touched on topics 
including the number and location of military camps in 
``Chinese occupied Tibet.'' \293\ He smuggled a letter 
appealing to the United Nations for help out of Qushui 
Prison,\294\ where he is serving his sentence.\295\ Drolma Kyab 
wrote in the letter, ``They think that what I wrote about 
nature and geography was also connected to Tibetan 
independence. . . . [T]his is the main reason of my conviction, 
but according to Chinese law, the book alone would not justify 
such a sentence. So they announced that I am guilty of the 
crime of espionage.'' \296\
    The Gannan Intermediate People's Court in Gansu province 
sentenced nun Choekyi Drolma to three years' imprisonment in 
December 2005 for ``inciting splittism,'' according to official 
Chinese information that became available in November 
2006.\297\ She is serving her sentence in the Gansu Women's 
Prison. Choekyi Drolma was among five Tibetan monks and nuns 
detained in 2005 in Xiahe (Sangchu), in Gannan (Kanlho) Tibetan 
Autonomous Prefecture (TAP) in Gansu. Public security officials 
detained her along with nuns Tamdrin Tsomo and Yonten Drolma of 
Gedun Tengyeling Nunnery, and monks Dargyal Gyatso and Jamyang 
Samdrub of Labrang Tashikhyil Monastery, on May 22, 2005, on 
suspicion that they circulated and displayed letter-sized 
posters that were critical of the Chinese government. The 
official information mentioned only Choekyi Drolma, but it is 
likely that the court tried and sentenced the five monks and 
nuns together since they allegedly acted together. Dargyal 
Gyatso and Tamdrin Tsomo are believed to be serving 3-year 
sentences; Jamyang Samdrub and Yonten Drolma are believed to 
have been released after completing 18-month sentences.\298\
    Jamphel Gyatso and Tashi Gyaltsen, two of a group of five 
monks of Dragkar Traldzong Monastery reportedly detained in 
Qinghai province in January 2005 and sentenced in February for 
publishing a poem in the monastery newsletter, are reportedly 
serving their three-year sentences at a brick kiln near Xining, 
the capital of Qinghai.\299\ The other three monks, Lobsang 
Dargyal, Tsesum Samten, and Tsultrim Phelgyal, completed two-
year and six-month sentences in July 2007 and are presumed to 
be released. Security officials considered the poem to be 
politically sensitive and ordered the monks to serve terms of 
reeducation through labor.
    No new developments were reported in the past year in the 
cases of prisoners Bangri Chogtrul or Tenzin Deleg, 
reincarnated Tibetan lamas convicted in separate cases. Both 
men had contact with the Dalai Lama in India in the years prior 
to their detentions. Bangri Chogtrul (Jigme Tenzin Nyima), who 
lived as a householder in Lhasa and managed a children's home 
along with his wife, was convicted of inciting splittism and 
sentenced to life imprisonment in a closed court in Lhasa in 
September 2000.\300\ The Lhasa Intermediate People's Court 
commuted his sentence to 19 years of fixed term imprisonment in 
July 2003, and reduced the sentence by 1 year in November 
2005.\301\ Tenzin Deleg (A'an Zhaxi) was convicted in a closed 
court in Sichuan province in November 2002 of conspiring to 
cause explosions and inciting splittism.\302\ Authorities claim 
that the case involves state secrets and refuse to disclose 
details of evidence that establishes a direct link between 
Tenzin Deleg and the alleged criminal acts. The Commission and 
Human Rights Watch have published reports on the case, which 
has stirred international controversy for its procedural 
violations and lack of transparency.\303\ The provincial high 
court commuted Tenzin Deleg's reprieved death sentence to life 
imprisonment in January 2005. Chinese officials acknowledge 
that he suffers from coronary heart disease and high blood 
pressure.\304\
    In an incident linked to a protest against Tenzin Deleg's 
imprisonment, public security officials in Litang county, Ganzi 
TAP, detained Tibetan nomad Ronggyal Adrag (Runggye Adak) on 
August 1, 2007, at a horse-racing festival after he climbed 
onto a stage where officials were scheduled to speak and, 
according to one report,\305\ shouted slogans calling for the 
Dalai Lama's return to Tibet, the release of Gedun Choekyi 
Nyima (the Panchen Lama identified by the Dalai Lama), and 
Tibetan independence. According to other reports,\306\ he 
called for the Dalai Lama's return, freedom of religion, and 
the releases of the Panchen Lama and Tenzin Deleg. Ronggyal 
Adrag's statements may have been provoked by a petition drive 
conducted by Chinese officials who visited local monasteries in 
the weeks before the festival and told monks to sign a petition 
stating that they do not want the Dalai Lama to return to 
Tibet.\307\ In an unusually swift and public response, China's 
state-run media acknowledged on August 3 that police detained 
Ronggyal Adrag for ``inciting separation of the 
nationalities,'' and that more than 200 Tibetans had gathered 
the same day outside the detention center to call for his 
release.\308\ All of the Tibetans left the area of the 
detention center by the following day, according to the 
official report. A week later, on August 8, People's Armed 
Police forces used tear gas and stun grenades to disperse 
Tibetans who gathered peacefully near the horse-racing grounds 
to call for Ronggyal Adrag's release, according to an 
unofficial report.\309\ Authorities detained three of Ronggyal 
Adrag's nephews on August 21, including monk Adrug Lopoe of 
Lithang Monastery, whom police deemed to be a ``splittist'' 
influence behind the public demands for Ronggyal Adrag's 
release.\310\ Officials released Adrug Lopoe's two brothers 
soon after they took him into detention.\311\
    Another incident of Tibetan expression of the wish for the 
Dalai Lama to return to Tibet resulted in the detention of 
seven 14- and 15-year old middle school students in Xiahe 
county, Gannan TAP, according to an NGO report.\312\ On or 
about September 7, 2007, local public security officials 
detained about 40 students from a 
village middle school after some of the students allegedly 
wrote slogans on walls calling for the Dalai Lama's return and 
Tibetan freedom.\313\ Police released all but seven of the 
students within 48 hours, and transferred seven boys to the 
Xiahe county seat, where authorities refused to provide any 
information to the children's families or confirm that they 
were in police custody.\314\ The report named five of the boys: 
Chopa Kyab (age 14), Drolma Kyab (14), Tsekhu (14), and two 15-
year-olds each named Lhamo Tseten.\315\ Police reportedly beat 
one of the seven boys upon detention, resulting in profuse 
bleeding, and refused to allow the boy's family to take him for 
medical care.
    Chinese authorities carried out 13 known detentions of 
Tibetans in 2006, a decrease compared to the 24 such detentions 
in 2005 and 15 such detentions in 2004, according to 
information available in the Commission's Political Prisoner 
Database (PPD) as of September 2007. Of the known political 
detentions in 2006, nine took place in Sichuan province and 
four in the TAR. The PPD listed 100 known cases of current 
Tibetan political detention or imprisonment, a figure that is 
likely to be lower than the actual number of Tibetan political 
prisoners. Reports of Tibetan political imprisonment often do 
not reach monitoring groups until at least one or two years 
after the detentions occur. Forty-nine of the Tibetans are 
believed to be detained or imprisoned in the TAR, 30 in Sichuan 
province, 9 in Qinghai province, and 9 in Gansu province. The 
location where Chinese authorities are holding the Panchen Lama 
and his parents is unknown. Based on sentence information 
available for 61 of the current prisoners, the average sentence 
length is 11 years and 7 months.
    The number of known cases of current Tibetan political 
detention or imprisonment reported in the current Annual Report 
is approximately half the number that the Commission reported 
in the 2002 Annual Report.\316\ The downward trend in the 
number of known Tibetan political prisoners may reflect 
incomplete information, as well as fewer Tibetans risking 
imprisonment as punishment for peaceful expression and non-
violent action in opposition to Chinese policies. Instead, 
Tibetans may be turning to other methods of expressing their 
culture and self-identity.
    Monk Ngawang Phuljung of Drepung Monastery, the longest 
serving Tibetan who remains imprisoned for counterrevolutionary 
crimes, received a 6-month reduction to his 19-year sentence in 
September 2005 and is due for release from Qushui Prison on 
October 18, 2007, according to an October 2006 report based on 
official Chinese information.\317\ After his detention in April 
1989, the Lhasa Intermediate People's Court sentenced him along 
with nine other Drepung monks at a public rally in November. 
Ngawang Phuljung's crimes included ``forming a 
counterrevolutionary organization,'' ``spreading 
counterrevolutionary propaganda,'' ``passing 
information to the enemy,'' and ``crossing the border illegally 
and spying,'' according to a 1994 UN Working Group on Arbitrary 
Detention (UNWGAD) report that quoted an official Chinese 
response about the case.\318\ The UNWGAD report declared 
Ngawang Phuljung's detention arbitrary, and stated that the 
alleged espionage and betrayal of state secrets ``consisted in 
fact in the exposure of cases of violations of human rights 
including their disclosure abroad.''
    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of the 2007 Annual Report. The views and 
recommendations expressed in this report, however, do not 
necessarily reflect the views of individual Executive Branch 
members or the Administration.

                                Endnotes

    \1\ PRC Constitution, art. 36 (``enjoy freedom of religious 
belief''), art. 116 (``enact autonomy regulations and specific 
regulations in the light of the political, economic, and cultural 
characteristics of the nationality or nationalities''), art. 119 
(``independently administer educational, scientific, cultural, public 
health, and physical culture affairs''), art. 121 (``employ the spoken 
and written language or languages in common use''). Regional Ethnic 
Autonomy Law, enacted 31 May 84, amended 28 February 01, art. 11 
(``guarantee the freedom of religious belief''), art. 19 (``enact self-
governing regulations and separate regulations in the light of the 
political, economic, and cultural characteristics''), art. 21 (``use 
the language or languages commonly used in the locality;. . . the 
language of the nationality exercising regional autonomy may be used as 
the main language''), art. 36 (``decide on educational plans''), art. 
37 (``independently develop education for the nationalities''), art. 38 
(``develop literature, art, the press, publishing, radio broadcasting, 
the film industry, television, and other cultural undertakings''). 
Regulation on Religious Affairs, issued 30 November 04, art. 2 
(``Citizens enjoy freedom of religious belief.'').]
    \2\ CECC, 2004 Annual Report, 5 October 04, sec. I. The 2004 
recommendation stressed more specifically the objectives of dialogue: 
``The future of Tibetans and their religion, language, and culture 
depends on fair and equitable decisions about future policies that can 
only be achieved through dialogue. The Dalai Lama is essential to such 
a dialogue. The President and the Congress should continue to urge the 
Chinese government to engage in substantive discussions with the Dalai 
Lama or his representatives.'' CECC, 2005 Annual Report, 11 October 05, 
sec. I. The 2005 recommendation called for direct contact between the 
Dalai Lama and the Chinese leadership: ``To help the parties build on 
visits and dialogue held in 2003, 2004, and 2005, the President and the 
Congress should urge the Chinese government to move the current 
dialogue toward deeper, substantive discussions with the Dalai Lama or 
his representatives, and encourage direct contact between the Dalai 
Lama and the Chinese leadership.''
    \3\ CECC, 2006 Annual Report, 20 September 06, 17-18.
    \4\ H. Con. Res. 196, ``Authorizing the use of the Rotunda and 
grounds of the Capitol for a ceremony to award the Congressional Gold 
Medal to Tenzin Gyatso, the Fourteenth Dalai Lama,'' 4 September 07. 
According to the House Concurrent Resolution, the award ceremony will 
take place in the Capitol Rotunda on October 17, and the Capitol 
grounds will be available for a public event. The Resolution names the 
International Campaign for Tibet as the sponsor of the public event.
    \5\ S. 2784, Fourteenth Dalai Lama Congressional Gold Medal Act, 
The Library of Congress (Online), enacted 27 September 06; 
International Campaign for Tibet (ICT) (Online), ``US Congress Passes 
Bill to Award the Dalai Lama the Congressional Gold Medal: Bill 
Cosponsored by 387 Members of U.S. House and Senate,'' 13 September 06. 
ICT notes that the Fourteenth Dalai Lama Congressional Gold Medal Act 
was introduced as S.2782 by Senators Dianne Feinstein and Craig Thomas, 
and as H.R.4562 by Representatives Ileana Ros-Lehtinen, and Tom Lantos.
    \6\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington D.C.: self-published CD-ROM, 1997), Table 
7. The 13 Tibetan autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR), with an area of 1.2 million square kilometers 
(463,320 square miles), as well as 10 Tibetan autonomous prefectures 
(TAP) and two Tibetan autonomous counties (TAC) located in Qinghai, 
Gansu, Sichuan, and Yunnan provinces. Qinghai province: Yushu TAP, 
197,791 square kilometers (76,367 square miles); Guoluo (Golog) TAP, 
78,444 square kilometers (30,287 square miles); Huangnan (Malho) TAP, 
17,901 square kilometers (6,912 square miles); Hainan (Tsolho) TAP, 
41,634 square kilometers (16,075 square miles); Haibei (Tsojang) TAP, 
52,000 square kilometers (20,077 square miles); Haixi (Tsonub) Mongol 
and Tibetan AP, 325,787 square kilometers (125,786 square miles). Gansu 
province: Gannan (Kanlho) TAP, 45,000 square kilometers (17,374 square 
miles); Tianzhu (Pari) TAC, 7,150 square kilometers (2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP, 153,870 square kilometers 
(59,409 square miles); Aba (Ngaba) Tibetan and Qiang AP, 86,639 square 
kilometers (33,451 square miles); Muli (Mili) TAC, 11,413 square 
kilometers (4,407 square miles). Yunnan province: Diqing (Dechen) TAP, 
23,870 square kilometers (9,216 square miles). The Table provides areas 
in square kilometers; conversion to square miles uses the formula 
provided on the Web site of the U.S. Geological Survey (USGS): one 
square kilometer = 0.3861 square mile. Based on data in the Table, the 
10 TAPs and 2 TACs have a total area of approximately 1.04 million 
square kilometers (402,000 square miles). The TAR and the Tibetan 
autonomous prefectures and counties are contiguous and total 
approximately 2.24 million square kilometers (865,000 square miles). 
Xining city and Haidong prefecture, located in Qinghai province, have a 
total area of 20,919 square kilometers (8,077 square miles) and are not 
Tibetan autonomous areas.
    \7\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, 11 July 2007. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003.
    \8\ Ibid.
    \9\ Ibid.
    \10\ Ibid.
    \11\ Ibid. President Bush raised the issue of dialogue and direct 
discussion between the Dalai Lama and Chinese officials when he met 
President Hu in Washington in April 2006 and at the Asia-Pacific 
Economic Cooperation Forum (APEC) in Vietnam the following November.
    \12\ Ibid.
    \13\ Ibid.
    \14\ Paula Dobriansky was sworn in as Under Secretary of State for 
Global Affairs on May 1, 2001. She was appointed Special Coordinator 
for Tibetan Issues on May 17, 2001. She was appointed CECC Commissioner 
in July 2001.
    \15\ U.S. Department of State, Report on Tibet Negotiations.
    \16\ Ibid.
    \17\ ``Dalai Lama's Envoy: China Talks Deal With Substantive 
Issues, Encounter Obstacle,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 3. The envoys visited China on September 9-27, 
2002; May 25-June 8, 2003; September 12-29, 2004, and February 15-23, 
2006. The fourth round of dialogue took place at the Chinese Embassy in 
Bern, Switzerland on June 30-July 1, 2005.
    \18\ Tibetan Government-in-Exile, ``Statement by Special Envoy of 
His Holiness the Dalai Lama, Lodi Gyari, head of the Tibetan 
delegation, following the sixth round of discussions with the Chinese 
leadership,'' 7 July 07.
    \19\ Word count of main text of Special Envoy statements following 
sessions of dialogue: 2002, 770 words; 2003, 831 words; 2004, 454 
words; 2005, 514 words; 2006, 303 words; 2007, 235 words.
    \20\ International Campaign for Tibet (Online), ``ICT's Mission,'' 
last visited 15 July 07. In addition to serving as the Dalai Lama's 
Special Envoy, Lodi Gyari is the Executive Chairman of the 
International Campaign for Tibet (ICT). International Campaign for 
Tibet (Online), ``ICT's Mission,'' last visited 15 July 07. ICT 
``promotes self-determination for the Tibetan people through 
negotiations between the Chinese government and the Dalai Lama.''
    \21\ Tibetan Government-in-Exile, ``Statement by Special Envoy of 
His Holiness the Dalai Lama, Lodi Gyari, head of the Tibetan 
delegation, following the sixth round of discussions with the Chinese 
leadership,'' 7 July 07.
    \22\ Ibid.
    \23\ Ibid.
    \24\ ``Communist Party Adds Tibetan Affairs Bureau to the United 
Front Work Department,'' CECC China Human Rights and Rule of Law 
Update, October 2006, 8.
    \25\ Ibid.
    \26\ Ibid.
    \27\ Ibid.
    \28\ Tibetan Government-in-Exile (Online), ``Statement by Special 
Envoy Lodi Gyari, Head of the Delegation Sent by His Holiness the Dalai 
Lama to China,'' 11 June 03; Tibetan Government-in-Exile (Online), 
``Statement by Special Envoy Kasur Lodi Gyari, Head of the Delegation 
to China,'' 13 October 04.
    \29\ ``Forum on Tibetan Cultural Preservation Upholds Party 
Development Policy,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 12-13.
    \30\ ``Talks With Chinese Officials in Switzerland Were Concrete 
and Substantive, Says Tibetan Special Envoy,'' CECC China Human Rights 
and Rule of Law Update, August 2005, 2-3.
    \31\ ``Forum on Tibetan Cultural Preservation Upholds Party 
Development Policy,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 12-13.
    \32\ Ibid.
    \33\ The Dalai Lama has made a statement on the anniversary of the 
1959 Lhasa uprising on March 10 of every year that he has lived in 
exile, beginning in 1960.
    \34\ Tibetan Government-in-Exile (Online),''The Statement of His 
Holiness the Dalai Lama on the Forty-Eighth Anniversary of the Tibetan 
National Uprising Day,'' 10 March 2007. PRC Constitution, Preamble. 
Samdhong Rinpoche's remark refers to a statement in the Preamble, ``In 
the struggle to safeguard the unity of the nationalities, it is 
necessary to combat big-nation chauvinism, mainly Han chauvinism, and 
also necessary to combat local-national chauvinism.'' China's system of 
ethnic autonomy is an attempt to resolve the divergent interests of a 
dominant and potentially overbearing ethnic group (Han) and 
nationalistic ethnic minorities (such as Tibetans, Uighurs, and 
Mongols).
    \35\ Testimony of Lodi G. Gyari, Special Envoy of His Holiness the 
Dalai Lama, at the House Foreign Affairs Committee Hearing on the 
Status of Tibet Negotiations, U.S. House of Representatives Committee 
on Foreign Affairs (Online), 13 March 07.
    \36\ Tibetan Government-in-Exile (Online), ``We Are Not Asking for 
`High' or `Low' Degree of Autonomy: Kalon Tripa,'' 12 May 07.
    \37\ Tibetan Government-in-Exile (Online), ``The Middle-Way 
Approach: A Framework for Resolving the Issue of Tibet,'' last visited 
13 July 07. The explanation of the Middle-Way Approach lists eight 
``important components.'' The first three are: (1) Without seeking 
independence for Tibet, the Central Tibetan Administration strives for 
the creation of a political entity comprising the three traditional 
provinces of Tibet; (2) Such an entity should enjoy a status of genuine 
national regional autonomy; (3) This autonomy should be governed by the 
popularly-elected legislature and executive through a democratic 
process.
    \38\ Tibetan Government-in-Exile (Online), ``Tibet at a Glance,'' 
last visited 14 July 07. ``Land Size: 2.5 million square kilometers, 
which includes U-Tsang, Kham and Amdo provinces [the three traditional 
provinces of Tibet]. `Tibet Autonomous Region,' consisting of U-Tsang 
and a small portion of Kham, consists of 1.2 million square 
kilometers.'' A People's Daily Web page states that the area of China 
is 9.6 million square kilometers.
    \39\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7.
    \40\ ``Seeking Unity Through Equality: The Current Status of 
Discussions Between His Holiness the Dalai Lama and the Government of 
the People's Republic of China,'' Prepared Statement of Lodi Gyaltsen 
Gyari, Special Envoy of His Holiness the Dalai Lama, The Brookings 
Institution (Online), 14 November 2006.
    \41\ Question and Answer Session with Lodi Gyaltsen Gyari, Special 
Envoy of His Holiness the Dalai Lama, on the Current State of 
Discussions Between the Dalai Lama and the Government of the People's 
Republic of China, The Brookings Institution (Online), 14 November 
2006.
    \42\ Tibetan Government-in-Exile (Online), ``Statement of His 
Holiness the Dalai Lama on the Forty-Seventh Anniversary of the Tibetan 
National Uprising Day.''
    \43\ Tibetan Government-in-Exile (Online), ``We Are Not Asking for 
`High' or `Low' Degree of Autonomy: Kalon Tripa,'' 12 May 07.
    \44\ International Campaign for Tibet, Tibet at a Glance. The ICT 
Web page describes Tibet as an ``occupied'' country of 2.5 million 
square kilometers (965,000 square miles) with Lhasa as its capital.
    \45\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7. ``Seeking Unity Through Equality,'' 
Prepared Statement of Lodi Gyaltsen Gyari.
    \46\ ``Seeking Unity Through Equality,'' Prepared Statement of Lodi 
Gyaltsen Gyari.
    \47\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7. Steven Marshall and Susette Cooke, Tibet 
Outside the TAR, Table 7. The total area of the TAR and Tibetan 
autonomous prefectures and counties is approximately 2.24 million 
square kilometers (865,000 square miles). The area that Tibetans claim 
as Tibet, 2.5 million square kilometers, is approximately 965,000 
square miles.
    \48\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4. The only prefectural-
level areas of Qinghai province that are not a Tibetan autonomous 
prefecture or a Mongol and Tibetan autonomous prefecture are Xining 
municipality and Haidong prefecture. According to official 2000 census 
information, the total population of Xining and Haidong was about 3.24 
million. Of that population, about 224,000 persons (6.9 percent) were 
Tibetans.
    \49\ The territory that Tibetans claim outside the existing Tibetan 
autonomous areas contain parts of autonomous prefectures or counties 
named to reflect ethnic groups including the Hui, Salar, and Tu in 
Qinghai province; the Kazak, Mongol, Yugur, Hui, Dongxiang, and Bao'an 
in Gansu province; the Yi in Sichuan province; the Naxi, Lisu, Nu, Bai, 
and Pumi in Yunnan province; and, according to some maps, the Mongol in 
Xinjiang. Substantial Han Chinese populations are also included, some 
established for centuries.
    \50\ Tabulation on Nationalities of 2000 Population Census of 
China, Table 10-4. According to official data, no county-level area 
outside the existing Tibetan autonomous areas has a Tibetan population 
higher than 25 percent. Three counties outside the existing Tibetan 
autonomous areas have a Tibetan population between 20 and 25 percent: 
Xunhua Salar Autonomous County (24.7 percent), Hualong Hui Autonomous 
County (21.5 percent), and Su'nan Yugur Autonomous County (24.4 
percent) in Gansu province. One county outside the existing Tibetan 
autonomous areas has a Tibetan population between 10 and 20 percent: 
Huangyuan county (10.4 percent) in Qinghai province. Six counties 
outside the existing Tibetan autonomous areas have a Tibetan population 
between 5 and 10 percent: Huangzhong county (8.5 percent), Datong Hui 
Autonomous County (6.6 percent), Ledu county (6.4 percent), and Huzhu 
Tu Autonomous County (6.0 percent) in Qinghai province; and Shimian 
county (9.8 percent) and Baoxing county (8.7 percent) in Sichuan 
province.
    \51\ Ibid. Substantial areas and populations of the territory that 
Tibetans claim outside the existing Tibetan autonomous areas contain 
Tibetan populations of 5 percent or less, including part or all of: 
Xining municipality in Qinghai province; Jiuquan, Zhangye, and Wuwei 
municipalities, and Linxia Hui Autonomous Prefecture in Gansu province; 
Liangshan Yi Autonomous Prefecture in Sichuan province; and Lijiang 
Naxi Autonomous Prefecture and Nujiang Lisu Autonomous Prefecture in 
Yunnan province.
    \52\ ``Seeking Unity Through Equality,'' Prepared Statement of Lodi 
Gyaltsen Gyari.
    \53\ Ibid.
    \54\ Ministry of Foreign Affairs (Online), ``The Tibetan ethnic 
minority,'' 15 November 00. ``In 1929, the Kuomintang government set up 
a commission for Mongolian and Tibetan affairs in Nanjing and 
established Qinghai province. In 1939, Xikang province was set up.'' 
(The article also shows that the Guomindang established Qinghai 
province in 1929. Today, Qinghai is occupied principally by Tibetan 
autonomous prefectures established by the PRC government.) People's 
Daily (Online), ``Panda's Hometown Lures Tourists, Investors With 
Wonders,'' 23 August 01. ``Ya'an boasts a history of over 2,000 years 
and was once the capital of Xikang province which was abolished in 
1955.''
    \55\ International Campaign for Tibet, Tibet at a Glance. A map on 
the Web site shows the Tibetan boundary as a solid line. Portions of 
Qinghai, Gansu, Sichuan, and Yunnan provinces that are inside the Tibet 
boundary are shown as dashed lines. Tibetan Government-in-Exile 
(Online), Map of Tibet, last visited 14 July 07. The relatively 
straight contour between the western and northern tips of the Tibet map 
shows that a portion of Bayinguoleng Mongol Autonomous Prefecture is 
included within Tibet.
    \56\ PRC Constitution, art. 62(12). The National People's Congress 
exercises the function and power to ``approve the establishment of 
provinces, autonomous regions, and municipalities directly under the 
Central Government.'' PRC Constitution, art. 89(15). The State Council 
exercises the function and power to ``approve the geographic division 
of provinces, autonomous regions, and municipalities directly under the 
Central Government, and to approve the establishment and geographic 
division of autonomous prefectures, counties, autonomous counties, and 
cities.''
    \57\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01.
    \58\ REAL, Preamble.
    \59\ Tibetan Government-in-Exile (Online),'' The Statement of His 
Holiness the Dalai Lama on the Forty-Eighth Anniversary of the Tibetan 
National Uprising Day.
    \60\ PRC Constitution, art. 31. ``The state may establish special 
administrative regions when necessary. The systems to be instituted in 
special administrative regions shall be prescribed by law enacted by 
the National People's Congress in the light of the specific 
conditions.''
    \61\ Ibid.
    \62\ Tibetan Government-in-Exile, ``We are not asking for `high' or 
`low' degree of autonomy.''
    \63\ REAL, Preamble.
    \64\ The REAL (amended 28 February 01) and State Council 
Regulations on the Implementation of the REAL (issued 11 May 05) 
promote increased emphasis on economic development, and reinforce the 
government's Great Western Development program. The Regulation on 
Religious Affairs (RRA) (issued 30 November 04) elaborates the state's 
legal control over the publication and dissemination of religious 
literature, the identification of high-ranking reincarnated Tibetan 
Buddhist lamas, state supervision over who teaches and studies 
religious subjects. The TAR Implementing Measures for the Regulation on 
Religious Affairs (issued 19 September 06) are more detailed and 
intrusive than the RRA in establishing control over the function of 
Tibetan Buddhism. The TAR Regulations on the Study, Use, and 
Development of the Tibetan Language (revised May 22, 2002) drop the 
requirement that state government agencies use both Mandarin and 
Tibetan, and instead allow them to decide to use either one.
    \65\ Question and Answer Session with Lodi Gyaltsen Gyari, The 
Brookings Institution. Responding to a question about the ``unification 
of all ethnic Tibetans,'' Gyari said that China accepts that ``the 
Tibetan people are one people,'' so the Tibetans are asking that they 
``be able to live within one single administration.'' Gyari asserted, 
``I am utterly convinced from every point of view, what we ask is 
legitimate, what we ask is according to the Chinese Constitution, 
Chinese laws.'' Tibetan Government-in-Exile, ``We are not asking for 
`high' or `low' degree of autonomy.'' Samdhong Rinpoche told a 
conference, ``Our two desires are that the constitutional provisions of 
national regional autonomy must be implemented . . ., [so that] all 
Tibetans must be administered by a single autonomous self-government. . 
. . We are simply asking for the sincere implementation of the national 
regional autonomy provisions enshrined in the Constitution of the 
People's Republic of China, which is further spelt out in the autonomy 
law.''
    \66\ REAL, art. 12. ``Autonomous areas may be established where one 
or more minority nationalities live in concentrated communities, in the 
light of local conditions such as the relationship among the various 
nationalities and the level of economic development, and with due 
consideration for historical background.''
    \67\ PRC Constitution, art. 62(12), 89(15).
    \68\ Ibid., art. 116. ``People's congresses of national autonomous 
areas have the power to enact autonomy regulations and specific 
regulations in the light of the political, economic and cultural 
characteristics of the nationality or nationalities in the areas 
concerned. . . .'' REAL, art. 19. ``The people's congresses of ethnic 
autonomous areas shall have the power to enact self-governing 
regulations and separate regulations in the light of the political, 
economic, and cultural characteristics of the nationality or 
nationalities in the areas concerned. . . .''
    \69\ PRC Legislation Law, enacted 15 March 00, art. 9. ``In the 
event that no national law has been enacted in respect of a matter 
enumerated in Article 8 hereof, the [NPC] and the Standing Committee 
thereof have the power to make a decision to enable the State Council 
to enact administrative regulations in respect of part of the matters 
concerned for the time being, except where the matter relates to crime 
and criminal sanctions, the deprivation of a citizen's political 
rights, compulsory measure and penalty restricting the personal freedom 
of a citizen, and the judicial system.''
    \70\ Ibid., art. 66.
    \71\ REAL, art. 20. ``If a resolution, decision, order, or 
instruction of a state agency at a higher level does not suit the 
actual conditions in an ethnic autonomous area, an autonomous agency of 
the area may report for the approval of that higher level state agency 
to either implement it with certain alterations or cease implementing 
it altogether. . . .''
    \72\ PRC Legislation Law, art. 66. ``. . . An autonomous decree or 
special decree may vary the provisions of a law or administrative 
regulation, provided that any such variance may not violate the basic 
principles thereof, and no variance is allowed in respect of any 
provision of the Constitution or the Law on Ethnic Area Autonomy and 
provisions of any other law or administrative regulations which are 
dedicated to matters concerning ethnic autonomous areas.''
    \73\ PRC Constitution, art. 31.
    \74\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. ``The situation 
in Tibet is entirely different from that in Hong Kong and Macao. The 
Hong Kong and Macao issue was a product of imperialist aggression 
against China; it was an issue of China's resumption of exercise of its 
sovereignty. Since ancient times Tibet has been an inseparable part of 
Chinese territory, where the Central Government has always exercised 
effective sovereign jurisdiction over the region.'' ``Yedor: On the 
`Middle Way' of the Dalai Lama,'' China Tibet Information Center 
(Online), 18 July 06. ``It is known to all that the ``one country, two 
systems'' refers to the fact that the mainland follows the socialist 
system while Hong Kong and Macao continue to follow the capitalist 
system they had followed before. However, no capitalist system existed 
in Tibetan history; . . .''
    \75\ CECC, Annual Report 2002, 12 October 02, Sec. 1.
    \76\ CECC, Annual Report 2004, 5 October 04, Sec. 1.
    \77\ CECC, Annual Report 2006, 20 September 06, Sec. 1.
    \78\ Zhang Qingli, ``Grasp the Two Major Affairs of Development and 
Stability, Promote the Building of a Harmonious Tibet,'' Seeking Truth, 
16 January 07 (Open Source Center, 18 January 07); Tenzing Sonam, 
``Roadblock on the Middle Path,'' Himal Magazine (Online), December 
2006. ``Why, then, when the Tibetans are officially doing everything 
possible to create what the Kashag's Prime Minister, Samdhong Rinpoche, 
calls a `conducive atmosphere,' are the Chinese stepping up their 
campaign to vilify the Dalai Lama, and denouncing his overtures to find 
accommodation?''
    \79\ ``China Vows to Tighten Security in Tibet,'' Reuters, 
reprinted in Phayul (Online), 21 May 07. TAR Party Secretary Zhang 
Qingli told a group of Party members, ``From beginning to end . . . we 
must deepen patriotic education at temples, comprehensively expose and 
denounce the Dalai Lama clique's political reactionary nature and 
religious hypocrisy;'' ``Tibetan Abbot Forced To Step Down,'' Radio 
Free Asia (Online), 30 May 07. A Tibetan Buddhist abbot in Gande 
county, Guolou Tibetan Autonomous Prefecture, Qinghai province, said 
that officials were stepping up patriotic education in the county. 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
Country Reports on Human Rights Practices--2006, China (includes Tibet, 
Hong Kong, and Macau), 8 March 06. ``Numerous credible sources reported 
that political education sessions intensified in Lhasa beginning in 
April 2005.''
    \80\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' [hereinafter TAR 2006 Measures], 
issued by the Standing Committee of the Tibet Autonomous Region 
People's Government on September 19, 2006. The TAR 2006 Measures became 
effective on January 1, 2007.
    \81\ Ibid. The Measures contain 56 articles (6,221 Chinese 
characters). Tibet Autonomous Region Temporary Measures on the 
Management of Religious Affairs [hereinafter TAR 1991 Measures], issued 
by the Standing Committee of the Tibet Autonomous Region People's 
Government on December 9, 1991. The measures contain 30 articles (3,355 
Chinese characters).
    \82\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa] [hereinafter MMR], 
issued 13 July 07.
    \83\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06. ``Although authorities 
permitted many traditional religious practices and public 
manifestations of belief, they promptly and forcibly suppressed any 
activities, which they viewed as vehicles for political dissent. This 
included religious activities that officials perceived as supporting 
the Dalai Lama or Tibetan independence.''
    \84\ CECC Staff Interviews. The Kargyu, Sakya, and Nyingma 
traditions, especially in Tibetan areas outside the TAR, may experience 
less interference from authorities.
    \85\ ``Zhang Qingli becomes new Party chief of Tibet,'' Xinhua 
(Online), 29 May 07; ``Xinjiang Communist Party Official Promoted to 
Acting Secretary of the Tibet Autonomous Region,'' CECC China Human 
Rights and Rule of Law Update, January 2006, 19. The Party Central 
Committee appointed Zhang Qingli to the post of acting TAR Party 
Secretary in November 2005, and Secretary on May 29, 2006. Zhang 
previously served in the Xinjiang Uighur Autonomous Region as Deputy 
Party Secretary and commander of the Xinjiang Production and 
Construction Corps (XPCC).
    \86\ ``TAR Party Secretary Accuses the Dalai Lama of Being a `False 
Religious Leader,' '' CECC China Human Rights and Rule of Law Update, 
September 2006, 14.
    \87\ The Party and government use the term ``Western hostile 
forces'' to include governments, NGOs, advocacy groups, media 
organizations, and individuals who criticize Chinese policies, actions, 
and records with respect to issues such as human rights, and who work 
to encourage or facilitate change in such areas.
    \88\ Zhang Qingli, ``Grasp the Two Major Affairs of Development and 
Stability.''
    \89\ ``China Vows to Tighten Security in Tibet,'' Reuters.
    \90\ ``Monk Dies Following Dispute With Patriotic Education 
Instructors,'' CECC China Human Rights and Rule of Law Update, December 
2005, 10. ``A Reader for Advocating Science and Technology and Doing 
Away With Superstitions'' (translated by International Campaign for 
Tibet in When the Sky Fell to Earth: The New Crackdown on Buddhism in 
Tibet, 2004). The manual asks, ``Why do we conduct patriotic education 
among monks and nuns in the monasteries?,'' and provides the answer: 
``Conducting patriotic education among the monks and nuns in the 
monasteries is an important aspect of strengthening the management of 
religious affairs by the government. . . . Dalai's bloc has never 
stopped penetrating and engaging in splittist activities in our region 
under the support of international antagonistic forces. . . . The monks 
and nuns should be religious professionals who love the country, love 
religion, obey the discipline, and abide by the law.''
    \91\ ``Lhasa Area Monks and Nuns Face a New Round of `Patriotic 
Education','' CECC China Human Rights and Rule of Law Update, November 
2005, 10; Tibetan Centre for Human Rights and Democracy (Online), 
``China Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions,'' 13 October 05.
    \92\ International Campaign for Tibet (Online), ``The Communist 
Party as Living Buddha: The Crisis Facing Tibetan Religion Under 
Chinese Control,'' 26 April 2007, 5. Tibetan Centre for Human Rights 
and Democracy (Online), Annual Report 2006, March 2006, 39, 41-42.
    \93\ ``Tibetan Abbot Forced To Step Down,'' Radio Free Asia. RFA 
reports that officials forced an abbot of a Tibetan Buddhist monastery 
in Gande (Gade) county, Guoluo (Golog) Tibetan Autonomous Prefecture to 
step down in May after he refused to sign a statement denouncing the 
Dalai Lama. An official of the county Religious Affairs Bureau 
allegedly acknowledged that authorities were stepping up patriotic 
education.
    \94\ ``Zhang Qingli Delivers Major Address at Opening of Party 
Conference in Tibet [Xizang quanqu dangyuan lingdao ganbu dahui zhaokai 
Zhang Qingli fabiao zhongyao jianghua],'' Tibet Daily, reprinted in 
Xinhua (Online), 16 May 06; ``TAR Party Secretary Calls for Tighter 
Control of Tibetan Monasteries, Nunneries,'' China Human Rights and 
Rule of Law Update, July 2006, 9.
    \95\ International Campaign for Tibet, ``The Communist Party as 
Living Buddha,'' 37. ICT cites, Xinhua, ``Zhang Qingli: Ensure Tibet's 
Leap-over Style Development and Long Term Order and Security [Zhang 
Qingli: Quebao Xizang kuayueshi fazhan he changzhi jiuan], 18 May 06.
    \96\ RRA, art. 17: ``Venues for religious activities shall set up 
management organizations and practice democratic management. Members of 
the management organizations of venues for religious activities shall 
be selected through democratic consultations and reported as a matter 
of record to the registration management organs for the venues.'' (In a 
Tibetan monastery or nunnery, a DMC is generally made up of monks or 
nuns selected from among themselves. Candidates are sometimes screened 
by local officials, according to some reports.)
    \97\ International Campaign for Tibet, ``The Communist Party as 
Living Buddha,'' 39.
    \98\ Ibid.
    \99\ Tibet Autonomous Region Temporary Measures on the Management 
of Religious Affairs [hereinafter TAR 1991 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on December 9, 1991, art. 15. ``The Buddhist Association is a mass 
organization of personages from religious circles and religious 
believers, and a bridge for the Party and government to unite and 
educate personages from religious circles and the believing masses. Its 
effectiveness shall be vigorously brought into play under the 
administrative leadership of the government's religious affairs 
department.''
    \100\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04.
    \101\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \102\ ``Regional National Autonomy Is the Only Road for Tibet's 
Development, Part One,'' Xinhua, 24 April 07 (Open Source Center, 17 
May 07). (Official TAR reports provided the figures of more than 1,700 
monasteries and nunneries and 46,000 monks and nuns as early as 1996.)
    \103\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \104\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' [hereinafter TAR 2006 Measures], 
issued by the Standing Committee of the Tibet Autonomous Region 
People's Government on September 19, 2006. The measures became 
effective on January 1, 2007.
    \105\ RRA, translated on the Web site of China Elections and 
Governance.
    \106\ TAR 2006 Measures. Of the Measures 56 articles: 7 articles 
lay out the ``general principles'' for religious activity; 21 articles 
stipulate responsibilities and regulations for ``religious 
organizations'' (provincial-level, government-controlled Buddhist 
associations) and ``venues for religious activities'' (e.g. monasteries 
and nunneries), as well as on activity by monasteries and nunneries; 17 
articles regulate religious activity by ``religious personnel'' (e.g. 
monks and nuns); 10 articles stipulate punitive measures against 
persons or entities that violate the measures; 1 article repeals the 
1991 Temporary Measures on the Management of Religious Affairs.
    \107\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. ``At present, 
there are over 1,700 venues for Tibetan Buddhist activities, with some 
46,000 resident monks and nuns; four mosques and about 3,000 Muslims; 
and one Catholic church and over 700 believers in the [Tibet Autonomous 
Region].''
    \108\ TAR 1991 Measures, issued by the Standing Committee of the 
Tibet Autonomous Region People's Government on December 9, 1991.
    \109\ TAR 2006 Measures, arts. 36-40.
    \110\ RRA, art. 27.
    \111\ TAR 1991 Measures, art. 23.
    \112\ Ministry of Foreign Affairs (Online), ``Did Tibet Become an 
Independent Country After the Revolution of 1911?,'' 15 November 00. 
``In 1792 the Twenty-Nine Article Imperial Ordinance was issued. It 
stipulated in explicit terms for the reincarnation of the Living 
Buddhas in Tibet as well as the administrative, military, and foreign 
affairs.'' (The edict sought to impose Qing control over religious, 
administrative, military, fiscal, commercial, and foreign affairs. The 
edict demanded that an Amban, the ``Resident Official'' representing 
the imperial court, would have equal status to the Dalai and Panchen 
Lamas, and function as the supervisor of the Tibetan administration.)
    \113\ Although the TAR 2006 Measures are government-issued, the 
measures depend in part on Democratic Management Committees (DMCs) and 
Buddhist associations for effective application. The Party maintains 
regular contact with both organizations, and requires each of them to 
study and implement Party policies on religion.
    \114\ TAR 2006 Measures, art. 36.
    \115\ Ibid., art. 37.
    \116\ Ibid., art. 38.
    \117\ Ibid., art. 39.
    \118\ Ibid., art. 39.
    \119\ The RRA contains no precedent for restriction on travel by 
religious professionals such as Tibetan Buddhist monks and nuns. The 
TAR 1991 Measures contained no restrictions on intra-provincial travel 
by monks and nuns. The Commission does not have on file detailed 
information about local rules or practices that may have exceeded the 
level of restriction provided for by the TAR 1991 Measures or the RRA.
    \120\ TAR 2006 Measures, arts. 41-44.
    \121\ ``Practicing religion'' is distinct from studying religion, 
which is more strictly regulated. Practicing religion may include 
activities such as conducting extended periods of prayer and ritual 
offering, or going on pilgrimage. Monks and nuns sometimes conduct 
extended periods of prayer and offering while living in seclusion, or 
in remote places in a rudimentary shelter.
    \122\ TAR 2006 Measures, art. 41. The requirement to report for the 
record to the local government's religious affairs bureau could provide 
government officials a pretext to discourage, interfere in, or prevent 
monks and nuns from engaging in traditional Buddhist practices, 
especially living in seclusion or in remote places.
    \123\ Ibid., art. 43.
    \124\ TAR 1991 Measures, art. 9.
    \125\ TAR 2006 Measures, arts. 46-55. The articles use the term 
``disqualify,'' not ``expel.'' ``Disqualify'' here means to disqualify 
someone from legally practicing religion as a religious professional. 
Revoking registration as a ``religious professional'' terminates a 
person's legal status as a monk or nun, and the authorization to reside 
at a monastery or nunnery in order to study and practice religion.
    \126\ Ibid., art. 34. The RRA and TAR 1991 Measures do not 
explicitly state such a ban.
    \127\ Ibid., art. 53.
    \128\ Padmasambhava, or Guru Rinpoche, is regarded as one of the 
greatest teachers of Tibetan Buddhism and a central figure in the 
oldest tradition of Tibetan Buddhism, the Nyingma.
    \129\ Gyurme Dorje, Tibet Handbook, (Bath, England: Trade and 
Travel Handbooks, 1996), 235. Samye Monastery was probably constructed 
between 775 and 779, although other historical accounts provide 
different dates.
    \130\ International Campaign for Tibet (Online), ``Demolition of 
Giant Buddha Statue at Tibetan Monastery Confirmed by China,'' 14 June 
07.
    \131\ Tibetan Centre for Human Rights and Democracy (Online), 
``Colossal Guru Rinpoche's Statue Demolished in Tibet: China's New 
Religious Affairs Regulations for `TAR' Entered Into Force,'' 4 June 
07.
    \132\ Ibid.
    \133\ RRA, art. 24, ``No organizations or individuals other than 
religious bodies, monasteries, temples, mosques, and churches may build 
large-size outdoor religious statues.'' TAR 2006 Measures, art. 13, 
``No group or individual outside of religious organizations and venues 
for religious activities may build religious structures such as a 
large-scale open-air religious statue, or mani lhakhang [prayer (wheel) 
temple].'' (The TAR 1991 Measures do not contain a precedent for 
Article 13 of the TAR 2006 Measures.)
    \134\ RRA, art. 44, ``Where, in violation of the provisions of 
these Regulations, anyone builds a large outdoor religious statue, the 
religious affairs department shall order it to discontinue the 
construction and to demolish the statue in a specified time limit; . . 
.'' TAR 2006 Measures, art. 48, ``Where, in violation of provisions in 
Article 13 of these measures, a religious structure such as an outdoor 
religious statue, stupa, or mani lhakhang [prayer (wheel) temple] is 
built without authorization outside of a venue for religious activity, 
the people's government religious affairs department at the county 
level or above orders redress, suspension of construction, and 
demolition within a specified time limit, in accordance with relevant 
laws and regulations.''
    \135\ ``Samye Moves Open-air Statue of Buddha,'' China Tibet 
Information Center (Online), 9 June 07. ``Samye Monastery made bold to 
erect a copper statue of Buddha Padmasambhava in the open air donated 
by a related enterprise's principal, which disobeyed the Law of the 
People's Republic of China on Protection of Cultural Relics and the 
Notice of Illegally Building Open Statue of Buddha jointly issued by 
the State Administration for Religious Affairs of People's Republic of 
China, Ministry of Construction of the People's Republic of China, and 
China National Tourism Administration.''
    \136\ Ibid.
    \137\ International Campaign for Tibet, ``Demolition of Giant 
Buddha Statue at Tibetan Monastery''
    \138\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \139\ Tibet Information Network (TIN), Background Briefing Papers: 
Documents and Statements from Tibet 1996-1997, 1998, 45. A November 4, 
1996, article in the Tibet Daily said that the number of monasteries 
and nunneries in the TAR (1,787) was too high and that the Party 
planned in 1986 that only 229 monasteries would be reopened in the TAR. 
The article said that the number of monks and nuns (46,000 in early 
1996) was high and created a negative impact on social and economic 
development. (The TIN summary of the article did not include any 
reference to a Party statement explicitly calling for a reduction in 
the number of monasteries, nunneries, monks, and nuns.)
    \140\ ``Reincarnation of Tibetan Living Buddhas Must Get Government 
Approval,'' Xinhua, reprinted in People's Daily (Online), 3 August 07.
    \141\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa] [hereinafter MMR], 
issued 13 July 07.
    \142\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. There are 
approximately 1,700 monasteries and nunneries and 46,000 monks and nuns 
in the TAR. CECC Staff Interviews, September 2003. According to a 
Chinese official, there are 655 Tibetan Buddhist monasteries and 
nunneries and approximately 21,000 monks and nuns in Qinghai province. 
An official in Huangnan (Malho) TAP in eastern Qinghai province 
reported that there are 83 monasteries and nunneries, 3,656 monks and 
nuns, and 116 Tibetan Buddhist reincarnations in the prefecture. (Based 
on the Huangnan figures, the ratio of the number of monasteries and 
nunneries in Huangnan to the number of reincarnations is about 1.4 to 
1. The ratio of monks and nuns to reincarnations in Huangnan is 
approximately 32 to 1.) CECC Staff Interview, April 2004. According to 
a Chinese official, in Gansu province there are 276 Tibetan Buddhist 
monasteries and nunneries, approximately 10,000 monks and nuns, and 144 
Tibetan Buddhist reincarnated teachers. (Based on these figures, the 
ratio of the number of monasteries and nunneries in Gansu to the number 
of reincarnations is approximately 1.9 to 1. The ratio of monks and 
nuns to reincarnations in Gansu is approximately 69 to 1.) Web site of 
the Sichuan Province Party Committee Policy Research Office, ``Improve 
Capacity to Resolve Minority Issues, Make Efforts to Build a Harmonious 
Ganzi,'' 10 August 05. There are 515 Tibetan Buddhist monasteries and 
nunneries and 37,916 monks and nuns in Ganzi (Kardze) Tibetan 
Autonomous Prefecture (TAP). (The data in these sources total 3,146 
Tibetan Buddhist monasteries and nunneries and approximately 115,000 
monks and nuns, and do not include monasteries and nunneries in Aba 
(Ngaba) Tibetan and Qiang Autonomous Prefecture and Muli (Mili) Tibetan 
Autonomous County in Sichuan province, and Diqing (Dechen) TAP in 
Yunnan province.)
    \143\ Based on an estimated 3,300 Tibetan monasteries and 
nunneries, and extrapolating an estimate by applying the ratio of 
monasteries to reincarnations in Gansu province (1.9 to 1) and Huangnan 
TAP (1.4 to 1), an estimated total number of reincarnations could be 
more than 1,700 (based on the Gansu ratio) and more than 2,300 (based 
on the Huangnan ratio). The Gansu and Huangnan data samples are 
relatively small, however, and may not provide a reliable estimate. The 
Commission has very little information on the number of reincarnated 
teachers in the TAR; the proportion there may be lower than in some of 
the Tibetan areas of Sichuan and Qinghai provinces.
    \144\ ``Reincarnation of Tibetan Living Buddhas Must Get Government 
Approval,'' Xinhua, reprinted in People's Daily (Online), 3 August 07.
    \145\ MMR, art. 3.
    \146\ Ibid., art. 4.
    \147\ Xining city, the capital of Qinghai province, has four urban 
districts (Chengdong, Chengxi, Chengzhong, and Chengbei), but there are 
no Tibetan Buddhist monasteries within the city districts.
    \148\ The Commission does not have official information on the 
number of reincarnated Tibetan Buddhist teachers at Drepung and Sera 
Monasteries, but each monastery has several according to unofficial 
reports.
    \149\ In comparison to the MMR, only Article 27 of the RRA 
addresses reincarnation (requiring government guidance and compliance 
with ``historical conventions''). Articles 36-40 of the TAR 2006 
Measures address reincarnation, but the measures apply only within the 
TAR and do not apply as many detailed requirements as the MMR. Only 
Article 23 of the TAR 1991 Measures refers to reincarnation (banning 
the involvement of ``foreign forces'' in confirming reincarnations).
    \150\ MMR, arts. 3-4.
    \151\ Ibid., arts. 5-7.
    \152\ Ibid., arts. 4, 7-9
    \153\ Ibid., art. 10.
    \154\ Ibid., art. 12.
    \155\ Ibid., art. 11.
    \156\ ` ``Our Own Come First' in the Reincarnation of Living 
Buddhas,'' Singtao Daily, 23 August 07 (Open Source Center, 13 
September 07). The report does not state the date when the forum took 
place.
    \157\ ` ``Ibid. ``The meeting stressed that the Tibetan areas must 
strictly carry out the Management Measures for the Reincarnation of 
`Living Buddhas' in Tibetan Buddhism, that `our own comes first' in the 
reincarnation of living Buddhas, and that we must be on guard against 
interference by the Dalai Lama clique in exile abroad with the support 
of international hostile forces.''
    \158\ Ibid.
    \159\ The figures for 2004 and 2005, reported by the CECC 2006 
Annual Report based on data available in the PPD as of August 2006, 
have not changed.
    \160\ The Commission's Political Prisoner Database (PPD) is 
available Online at http://ppd.cecc.gov.
    \161\ The CECC 2005 Annual Report referred to the period 2002-2004 
saying, ``About two-thirds of the Tibetan political prisoners detained 
from 2002 onward are in Sichuan province, according to the PPD. Half of 
them are monks.''
    \162\ U.S. Commission on International Religious Freedom, ``Annual 
Report of the Commission on International Religious Freedom,'' 2 May 
07, 123. ``The Chinese government acknowledges that more than 100 
Tibetan Buddhist monks and nuns are being held in prison.'' The report 
does not provide a date for the Chinese statement or provide additional 
detail.
    \163\ Tibetan Centre for Human Rights and Democracy, ``China 
Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions.'' For example, TCHRD reported that as many as eight Sera 
monastery monks reportedly detained the previous July remained 
unidentified. As of September 2007, additional information about the 
outcome of their detentions is not available.
    \164\ Tibetan Centre for Human Rights and Democracy (Online), 
``Human Rights Update, October 2006. For example, TCHRD reported that 
Sera Monastery monk Thubten Samten ``disappeared'' in May 2006 after he 
behaved in a defiant manner to members of a patriotic education work 
team when they warned him not to display prohibited material in his 
room. As of September 2007, information about whether or not police 
detained him is not available.
    \165\ See, for example, International Campaign for Tibet, ``The 
Communist Party as Living Buddha: The Crisis Facing Tibetan Religion 
Under Chinese Control,'' 26 April 2007, 29, 43, 55, 75.
    \166\ U.S. Department of State, International Religious Freedom 
Report 2006, China. ``The Government continued to refuse to allow 
access to Gendun Choekyi Nyima, . . . and his whereabouts were unknown. 
. . . All requests from the international community for access to the 
boy to confirm his well-being have been refused.'' ``UN Committee 
Recommends Independent Expert to Visit Boy Named As Panchen Lama,'' 
CECC Virtual Academy (Online), 26 January 06.
    \167\ UN Commission on Human Rights (Online), ``Summary of Cases 
Transmitted to Governments and Replies Received, 27 March 06, 24-25. 
The Special Rapporteur on Freedom of Religion or Belief sent a request 
to the Chinese government for information about Gedun Choekyi Nyima on 
June 9, 2005. The Chinese government provided a response on September 
7, 2005.
    \168\ ``It Is Both Illegal and Invalid for the Dalai Lama to 
Universally Identify the Reincarnated Soul Boy of the Panchen Lama,'' 
People's Daily, 1 December 95 (Open Source Center, 1 December 95).
    \169\ See CECC Annual Report 2006, Section V(d)--Freedom of 
Religion, for additional information about the Panchen Lama and 
Gyaltsen Norbu.
    \170\ Tibet Information Network, Background Briefing Papers: 
Documents and Statements from Tibet 1996-1997, 1998, 45. A November 4, 
1996, article in the Tibet Daily said that there were 1,787 monasteries 
and nunneries in the TAR, and 46,000 monks and nuns. Tabulation on 
Nationalities of 2000 Population Census of China, Table 10-4. The 
Tibetan population of the TAR was 2,427,168 in 2000. (If the government 
enumeration of monks and nuns is accurate, then 1.9 percent of the TAR 
Tibetan population are Tibetan Buddhist monks and nuns, and 98 percent 
are living in secular society.)
    \171\ The Gelug tradition, established in the late 14th century, is 
the largest of several traditions of Tibetan Buddhism that are 
currently practiced. The Dalai Lama and Panchen Lama are the most 
revered spiritual teachers of the Gelug.
    \172\ CECC Staff Interviews.
    \173\ International Campaign for Tibet (Online), ``Tibetans Banned 
From Marking Traditional Buddhist Anniversary,'' 9 January 07. ``All 
members of the Communist Party, government employees, retired cadres 
and staff, cadres and workers of business and enterprise work units and 
people's collectives, and the broad masses of young students are not 
permitted to participate in or observe celebrations of the Gaden 
Ngachoe Festival.'' (Gaden Ngachoe observes the passing in 1419 of 
Tsongkhapa, the founder of the Gelug tradition of Tibetan Buddhism, of 
which the Dalai Lama and Panchen Lama are the most revered spiritual 
teachers. The observance takes place on the 25th day of the 11th lunar 
month on the Tibetan calendar, December 15 in 2006.)
    \174\ Saga Dawa falls on the 15th day (the full moon) of the 4th 
month of the Tibetan lunar calendar. The day commemorates both the 
enlightenment and passing away of the Buddha. Saga Dawa fell on June 11 
in 2006, and on May 31 in 2007.
    \175\ Tibetan Centre for Human Rights and Democracy (Online), 
``China intensifies prohibition of religious activities in Tibet during 
the holy month of Saka Dawa,'' 19 May 07.
    \176\ CECC Staff Interviews.
    \177\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China. ``Government officials reportedly ordered 
Tibetans working for the government to refrain from going to temples 
during the Saga Dawa festival in May or risk losing their jobs.''
    \178\ ``Dalai Lama's Birthday celebrated by Tibetans across 
Tibet,'' Phayul (Online), 5 July 07.
    \179\ ``Work Report of the Tibet Autonomous Regional Government,'' 
Tibet Daily, 29 January 03 (Open Source Center, 16 June 03). Legchog 
(Lieque), then-Chairman of the TAR government, said, ``We carried out 
the work to confiscate and ban reactionary propaganda materials, 
cracked down on illegal exit to and entry from other countries, and 
checked ``Trunglha Yarsol'' [activities to mark the birthday of the 
Dalai Lama] and other illegal activities.''
    \180\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China. The report refers to the Dalai Lama's birthday 
in July 2006, saying, ``The prohibition on celebrating the Dalai Lama's 
birthday on July 6 continued.''
    \181\ ``Dalai Lama's Birthday celebrated by Tibetans across 
Tibet,'' Phayul.
    \182\ ``Grand Western Development Is a Vivacious Chapter in 
Implementation of `Three Represents','' People's Daily, 20 October 02 
(Open Source Center, 20 October 02). ``Since 1999, Comrade Jiang Zemin 
has frequently presided over meetings to specifically study the issue 
of implementing the strategy of great western development and has 
issued a series of important directives. In early 2000, the State 
Council founded a leading group for the development of the western 
region and presented the strategy of great western development.'' State 
Council, ``Some Opinions of the State Council on Continuing to Press 
Ahead with the Development of the Western Region,'' Xinhua, 22 March 04 
(Open Source Center, 29 March 04). ``Practice provides ample evidence 
that the strategic decision by the CPC Central Committee and the State 
Council to develop the west is entirely correct and that all policy 
measures and key tasks pertaining to the development of the western 
region are entirely consistent with reality.'' (The statement shows 
that the State Council considers implementation of GWD to be a matter 
of policy.)
    \183\ CECC, 2002 Annual Report, 40.
    \184\ ``Qinghai-Tibet Railway Project to Start on June 29,'' Xinhua 
(Online), 17 June 01. Railway construction was scheduled to begin on 
June 29, 2001. Completion would take six years.
    \185\ CECC, 2002 Annual Report, 40.
    \186\ CECC, 2003 Annual Report, 78.
    \187\ Ibid., 81.
    \188\ CECC, 2004 Annual Report, 97.
    \189\ Ibid., 97-98.
    \190\ CECC, 2005 Annual Report, 108
    \191\ Ibid., 109.
    \192\ CECC, 2006 Annual Report, 166.
    \193\ Ibid., 168.
    \194\ CECC, 2002 Annual Report, 41. ``The Commission recommends 
that the Congress appropriate increased funding for NGOs to develop 
programs that improve the health, education, and economic conditions of 
ethnic Tibetans.'' CECC, 2003 Annual Report, 4. ``The Congress should 
increase funding for U.S. nongovernmental organizations (Ngos) to 
develop programs that improve the health, education, and economic 
conditions of ethnic Tibetans living in Tibetan areas of China, and 
create direct, sustainable benefits for Tibetans without encouraging an 
influx of non-Tibetans into these areas.
    \195\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth, 15 June 00 (Open Source 
Center, 15 June 00). Li Dezhu (Li Dek Su) addresses the social and 
ethnic implications of the program that Jiang Zemin launched in 1999. 
(The campaign is also known as Develop the West, and as Xibu da kaifa.)
    \196\ ``Zhang Qingli Addresses `First Plenum' of Tibet Military 
District Party Committee,'' Tibet Daily, 20 April 07 (Open Source 
Center, 8 May 07).
    \197\ ``Hu Jintao,'' China Tibet Information Center (Online), 
visited 2 August 07.
    \198\ ``Hu Jintao Takes Part in Deliberations by Delegation of 
Tibet Deputies,'' Xinhua, 5 March 07 (Open Source Center), 5 March 07. 
Hu met with TAR delegates including Zhang Qingli and Jampa Phuntsog.
    \199\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01.
    \200\ See, for example, REAL, amended 28 February 01, arts. 54-72.
    \201\ PRC Constitution, art. 4. ``The people of all nationalities 
have the freedom to use and develop their own spoken and written 
languages, and to preserve or reform their own ways and customs.''
    \202\ REAL, enacted 31 May 84, art. 65.
    \203\ REAL, amended 28 February 01, art. 71.
    \204\ ``Education, Employment Top Concerns for Tibetan Youth,'' 
Radio Free Asia (Online), 13 July 07; ``Tibetans Stage Rare Public 
Protest in Lhasa,'' Radio Free Asia (Online), 8 November 06; Tibetan 
Government-in-Exile, ``Abuse in Job Allocation in Tibet Drives Students 
to Streets,'' 6 December 06. ``Tibetan University Graduates Stage 
Public Protest, Allege Job Discrimination,'' CECC Virtual Academy 
(Online), 15 December 06.
    \205\ REAL, enacted 31 May 84, art. 65.
    \206\ CECC, 2006 Annual Report, 169, citing Ma Rong and Tanzen 
Lhundup, ``Temporary Migrants in Lhasa in 2005,'' Section IV(4.8), 
Table 14. Based on a survey published by Chinese academics Ma Rong and 
Tanzen Lhundup, the rate of illiteracy among Tibetan migrants (32.3 
percent) was almost 10 times higher than for Han migrants (3.3 
percent), and Han migrants were better prepared to secure jobs that 
require skills learned in junior or senior middle school. Of the 
migrants surveyed, Han reached junior or senior middle school at about 
twice the rate of Tibetans: 53.7 percent of Han compared to 26 percent 
of Tibetans reached junior middle school, and 19.4 percent of Han 
compared to 9 percent of Tibetans reached senior middle school.
    \207\ REAL, amended 28 February 01, art. 71.
    \208\ Provisions of the State Council for Implementing the Law on 
Regional Ethnic Autonomy of the People's Republic of China [hereinafter 
REAL Implementing Provisions], issued 11 May 05.
    \209\ ``PRC Western Development Official on 4 Key Aspects of New 
Preferential Policies,'' China Daily, 23 October 00 (Open Source 
Center, 23 October 00). ``Wang Chunzheng, deputy director of the State 
Council's Western Development Office, said the policies focus on four 
key aspects; increasing capital input, improving the investment 
environment, attracting skilled personnel and boosting the development 
of science and technology. This is the first time that China has 
summarized the measures to be carried out in its `Go-West' campaign, . 
. .''
    \210\ REAL Implementing Measures, art. 29. ``The State encourages 
and supports talents of all categories and classes to develop and 
pioneer in ethnic autonomous areas and local government shall offer 
preferential and convenient working and living conditions to them. 
Dependents and children of cadres of Han nationality or ethnic 
minorities who go to work in remote, tough, and frigid ethnic 
autonomous areas shall enjoy special treatment in employment and 
schooling.''
    \211\ REAL, amended 28 February 01, art. 22.
    \212\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem.''
    \213\ ``Law on Western Development in Pipeline,'' China Daily 
(Online), 14 March 06.
    \214\ TAR Regulations on the Study, Use and Development of the 
Tibetan Language [hereinafter TAR Language Regulations], adopted July 
9, 1987, by the Fifth Session of the Fourth TAR People's Congress, and 
amended on May 22, 2002, by the Fifth Session of the Seventh TAR 
People's Congress.
    \215\ TAR Language Regulations, arts. 3-5. Mandarin and Tibetan 
have ``equal effect'' when government agencies at any level in the TAR 
are ``carrying out their duties.'' Government and regional enterprise 
meetings may use either or both of the Tibetan and Mandarin languages. 
Official documents must be issued in both languages. Citizens of ethnic 
minorities are ``assured of the right to use their native language to 
carry out legal proceedings.''
    \216\ State Council Information Office, White Paper on New Progress 
in Human Rights in the Tibet Autonomous Region, February 1998.
    \217\ ``Report on the Outline of The 10th Five-Year Plan for 
National Economic and Social Development by Chinese Premier Zhu Rongji 
at the Opening of the Fourth Session of the Ninth National People's 
Congress at the Great Hall of the People in Beijing,'' China Central 
Television, 5 March 01 (Open Source Center, 5 March 01). Premier Zhu 
said, ``During the Tenth Five-Year Plan period, we need to place 
emphasis on key projects for a good beginning to the program. . . . We 
must focus on a number of major projects of strategic significance, 
such as the transmission of natural gas and electricity from western to 
eastern regions and the planned Qinghai-Tibet Railway.'' State Council 
Office of Western Region Development, ``Implementation Opinions 
Concerning Policies and Measures Pertaining to the Development of the 
Western Region,'' Xinhua, 20 December 01 (Open Source Center, 15 
January 01). ``Resources must be concentrated on the construction of a 
host of major projects that impact the development of the western 
region as a whole, such as the ``West China-East China Gas Pipeline 
Project,'' the ``West China-East China Power Transmission Project,'' 
the Qinghai-Tibet Railway, major state highways, and the proper 
exploitation, conservation, and utilization of water resources.''
    \218\ ``Figures Related to Qinghai-Tibet Railway on its One Year 
Inauguration Anniversary,'' Xinhua (Online), 01 July 07.
    \219\ Tibetan Center for Human Rights and Democracy (Online), 
Annual Report 2006, 02 March 07, 5. ``The railway facilitating a huge 
population influx, including Chinese settlers into Tibet, is bound to 
inevitably change Tibet physically and culturally causing further 
alienation of Tibetan identity.''
    \220\ ``Education, Employment Top Concerns for Tibetan Youth,'' 
Radio Free Asia (Online), 13 July 2007. The report does not refer to 
the Qinghai-Tibet railway or to an increase in the Chinese population. 
It cites the increasing importance of having fluency in Mandarin 
language in order to secure a good job. The other factor necessary for 
finding a job is ``making the right connections.''
    \221\ ``Tibet Official: Tibet Not to be ``Assimilated'' by Han Amid 
Huge Investment,'' Xinhua (Online), 20 June 07. Jampa Phuntsog 
supported his assertion by pointing out, ``The customs and traditional 
festivals also remain unchanged after millions of tourists flock there 
following the central government's large amount investment in the 
region.''
    \222\ ``Figures Related to Qinghai-Tibet Railway on its One Year 
Inauguration Anniversary,'' Xinhua. ``A year after its inauguration, 
the railway has transported 1.5 million passengers into Tibet, nearly 
half of the total tourists arrivals in the region.''
    \223\ ``Tibetan Railway to Transport 4,000 More Tourists Each 
Day,'' China Tibet Information Center (Online), 22 May 06.
    \224\ ``Tibet Expects 6 Million Tourist Arrivals by 2010,'' Xinhua, 
reprinted in People's Daily (Online), 7 June 07. ``The region hosted 
more than 2.5 million tourists last year, including 154,800 from 
overseas.'' ``More Than 1.1 mln Tourists Visit Tibet in First Half 
Year,'' Xinhua (Online), 11 July 07. ``More than 1.1 million tourists 
traveled to Tibet in the first six months of the year, up 86.3 percent 
over the same period last year, according to the local tourism 
authority.''
    \225\ ``Qinghai-Tibet Railway Transports 270,000 Passengers,'' 
Xinhua (Online), 14 September 06. ``About 40 percent of the passengers 
were tourists, 30 percent business people and the rest students, 
transient workers, traders and people visiting relatives in Tibet.''
    \226\ ``Tibet Rail Construction Completed,'' China Daily (Online), 
15 October 05. ``The line is expected to attract tourists, traders and 
ethnic Chinese settlers who currently have to take either expensive 
flights to Lhasa or bone-shaking bus rides.''
    \227\ ``Callers Decry Impact of Tibet Railway,'' Radio Free Asia 
(Online), 31 July 07.
    \228\ Ibid.
    \229\ Tibetan Centre for Human Rights and Democracy (Online), 
``Tibetan People in Lhasa Reel Under Influx of Chinese Migrants,'' 3 
August 07.
    \230\ John K. Fairbank and Roderick MacFarquhar, eds., The 
Cambridge History of China, Vol. 14, (New York: Cambridge University 
Press, 1978), 368: ``Map 7. Railway Construction between 1949 and 
1960.'' The railroads linking Jining, Hohhot, and Baotou in Inner 
Mongolia were built before the PRC was founded.
    \231\ State Council Information Office, ``White Paper on History 
and Development of Xinjiang,'' Xinhua (Online), 26 May 03.
    \232\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003) Table 10-1: total population of the 
Inner Mongolia Autonomous Region (IMAR) was 23,323,347, of whom 
18,465,586 were Han; total population of the Xinjiang Uighur Autonomous 
Region (XUAR) was 18,459,511, of whom 7,489,919 were Han; total 
population of the Tibet Autonomous Region (TAR) was 2,616,329, of whom 
158,570 were Han. Table 10-2: total Mongol population of the IMAR was 
3,995,349. Table 10-5: total Uighur population of the XUAR was 
8,345,622. Table 10-4: total Tibetan population of the TAR was 
2,427,168. In the IMAR, the ratio of Han to Mongol was approximately 
4.6:1; in the XUAR, the ratio of Han to Uighur was approximately 0.9:1; 
in the TAR, the ratio of Han to Tibetan was approximately 0.07:1
    \233\ Human Rights Watch (Online), ` ``No One Has the Liberty to 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07, 3. A Tibetan herder from 
Maqin (Machen) county, Guoluo (Golog) Tibetan Autonomous Prefecture in 
Qinghai province (November 2004): ``They are destroying our Tibetan 
[herder] communities by not letting us live in our area and thus wiping 
out our livelihood completely, making it difficult for us to survive in 
this world, as we have been [herders] for generations. The Chinese are 
not letting us carry on our occupation and forcing us to live in 
Chinese-built towns, which will leave us with no livestock and we won't 
be able to do any other work. . . .''
    \234\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability, Promote the Building of a Harmonious Tibet,'' Seeking 
Truth, 16 January 07 (Open Source Center, 18 January 07).
    \235\ Human Rights Watch, ``No One Has the Liberty to Refuse,'' 3. 
According to the report, the current program to settle nomadic herders 
began in 2000 and has intensified in some areas since 2003.
    \236\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \237\ Hu Jintao served as the TAR Communist Party Secretary from 
1988-1992.
    \238\ ``Hu Jintao Takes Part in Deliberations by Delegation of 
Tibet Deputies,'' Xinhua, 5 March 07 (Open Source Center), 5 March 07.
    \239\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \240\ Ibid.
    \241\ Ibid.
    \242\ Human Rights Watch, ``No One Has the Liberty to Refuse,'' 3.
    \243\ Ibid., 27.
    \244\ Ibid., 17-18. ``The [policy] known as `revert pasture to 
grassland' (tuimu huancao), was aimed at reversing degradation in 
pastoral regions by imposing total, temporary, or seasonal bans on 
grazing.''
    \245\ Ibid., 45. ``Tibetan herders had pursued their way of life 
for centuries without causing harm to the grassland; damage emerged 
only after the imposition of policies such as collectivization.''
    \246\ Ibid., 26-38.
    \247\ Ibid. The report provides as examples art. 13 (``the right of 
citizens to own lawfully earned income, savings, houses and other 
lawful property''); art. 41 (``the right to criticize and make 
suggestions,'' ``the right to make to relevant state organs complaints 
and charges against, or exposures of, violation of the law or 
dereliction of duty''); and art. 111 (``committees for people's 
mediation,'' ``mediate civil disputes,'' ``convey residents' opinions 
and demands and make suggestions to the people's government'').
    \248\ Ibid., 57.
    \249\ Ibid., 43.
    \250\ ``More Nomadic Tibetan Herders Settle Down,'' Xinhua 
(Online), 2 September 04; ``Government Campaign to Settle Tibetan 
Nomads Moving Toward Completion,'' CECC China Human Rights and Rule of 
Law Update, November 2005, 8.
    \251\ Hamish McDonald, ``China Anxious To Prove Settled Life is 
Better for Tibetan Nomads,'' Sydney Morning Herald (Online), 5 October 
05; ``Government Campaign to Settle Tibetan Nomads Moving Toward 
Completion,'' CECC China Human Rights and Rule of Law Update, November 
2005, 8.
    \252\ CECC Staff Interviews. The nomad families lived in Gannan 
(Kanlho) TAP and Tianzhu (Pari) Tibetan Autonomous County. ``Government 
Campaign to Settle Tibetan Nomads Moving Toward Completion,'' CECC 
China Human Rights and Rule of Law Update, November 2005, 8.
    \253\ ``Tibet Official Denies Forced Relocation of Herdsmen,'' 
Xinhua (Online), 20 June 07.
    \254\ Ibid.
    \255\ ``Zhang Qingli Addresses `First Plenum' of Tibet Military 
District Party Committee,'' Tibet Daily, 20 April 07 (Open Source 
Center, 8 May 07). ``250,000 Tibetans move into new houses in 2006,'' 
China Tibet Information Center (Online), 16 January 07. ``The ``Housing 
Project'' which has been put into operation since 2006 aims at 
improving locals' living condition and special attention has been put 
into the house renovation, nomads' settle-down and moving because of 
endemic [local health problems].''
    \256\ ``Party Chief Brings Tibet New Homes,'' China Daily, 
reprinted in People's Daily (Online), 15 March 07.
    \257\ Ibid.
    \258\ Tabulation on Nationalities of 2000 Population Census of 
China. Table 1-2 shows 2,427,168 Tibetans in the TAR. Table 1-2c shows 
that 2,058,011 of them are classified as ``rural.''
    \259\ ``250,000 Tibetans move into new houses in 2006,'' China 
Tibet Information Center (Online), 16 January 07. The article states, 
``The ``Housing Project'' mostly reduces the cost of building houses 
for local Tibetans as the subsidy varying from 10,000 yuan to 25,000 
yuan has been offered to locals.''
    \260\ ``Party Chief Brings Tibet New Homes,'' China Daily. ``It 
would cost a rural Tibetan about 60,000 yuan to build a new house with 
a floor space of about 200 square meters. Part of that money could come 
from the autonomous region's government. Farmers can apply to receive 
10,000 yuan; a herdsman can apply for 15,000 yuan; and a resident of a 
poverty-stricken area can seek up to 25,000 yuan.''
    \261\ Human Rights Watch (Online), ``Tibet: China Must End Rural 
Reconstruction Campaign,'' 20 December 06.
    \262\ Ibid. ``The cost of building a new house that meets the 
government's standards is about US$5,000-US$6,000, though the 
government lends households only about US$1,200 for construction 
costs.''
    \263\ ``Tibet Population Tops 2.8 Million,'' Xinhua (Online), 12 
April 07. In the TAR in 2006, ``Farmers and herders posted a per capita 
net annual income of 2,435 yuan, . . .'' ``China's GDP Grows 10.7% in 
2006,'' China Daily, reprinted in Xinhua, 25 January 07. In 2006, 
``Last year, rural residents in China had their per-capita income 
increase by 10.2 percent to 3,587 yuan.'' (Based on these figures, the 
average rural income in the TAR is 68 percent of the national average.)
    \264\ Human Rights Watch, ``Tibet: China Must End Rural 
Reconstruction Campaign.''
    \265\ ``Tibet is Remade by Hand of Chinese Government by Force,'' 
McClatchy Newspapers, 29 July 07, reprinted in Phayul, 30 July 07.
    \266\ Tibetan Centre for Human Rights and Democracy (Online), Human 
Rights Update and Archives, ``The Rural Reconstruction Campaign in 
Tibet Against the Will and Wishes of the Residents,'' April 2007.
    \267\ Ibid.
    \268\ Ibid.
    \269\ See, e.g., the Universal Declaration of Human Rights, adopted 
and proclaimed by General Assembly resolution 217 A (III) of 10 
December 48, arts. 2, 7, 18, 19, 20; International Covenant on Civil 
and Political Rights (ICCPR) adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 
2(1), 18, 19, 21, 22, 26, 27; International Covenant on Economic, 
Social, and Cultural Rights (ICESCR) adopted by General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 3 January 
76, art. 2(1, 2).
    \270\ ``China to Monitor Ethnic Relations,'' Xinhua (Online), 29 
March 07. The State Council announced a monitoring mechanism to deal 
with ``emergencies resulting from ethnic issues.'' The mechanism aims 
to ``clamp down on ethnic separatism so as to safeguard ethnic unity, 
social stability, and national security.'' (The report provides an 
update about government efforts to crack down on what it deems to be 
ethno-nationalism.)
    \271\ CECC, 2002 Annual Report, 38.
    \272\ PRC Constitution, art. 54.
    \273\ CECC, 2006 Annual Report, 170-71.
    \274\ PRC Criminal Law, art. 103 (``organize, plot or carry out the 
scheme of splitting the State or undermining unity of the country;'' 
``incites others to split the State or undermine unity of the 
country''). The Commission's Political Prisoner Database does not 
contain official charge information for many Tibetan cases, but 
official Chinese media reports, as well as unofficial reports, 
frequently provide information indicating a charge of splittism.
    \275\ Ibid., art. 102-113.
    \276\ Dui Hua Dialogue, ``Official Responses Reveal Many Sentence 
Adjustments,'' Fall 2006, 6; ``Officials Extend Tibetan's Sentence for 
Shouting Pro-Dalai Lama Slogans in Prison,'' CECC China Human Rights 
and Rule of Law Update, December 2006, 17.
    \277\ ``Chinese Court Has Jailed More Than 20 `Reactionary' 
Tibetans Since 1996,'' Radio Free Asia (Online), 1 September 05; 
``Court Official Acknowledges Imprisoning Tibetans Who Carried Dalai 
Lama Photos Into the TAR,'' CECC China Human Rights and Rule of Law 
Update, October 2005, 4-5.
    \278\ ``Tibetan Jailed for Three Years,'' Radio Free Asia (Online), 
9 March 07. (The RFA report did not provide information about the 
charges against Penpa. Charges arising from possessing material 
pertaining to the Dalai Lama are likely to be based on Article 103 of 
the Criminal Law (inciting splittism).)
    \279\ Ibid. (The RFA report did not provide information about the 
charges against Penpa. Charges arising from possessing material 
pertaining to the Dalai Lama are likely to be based on Article 103 of 
the Criminal Law (inciting splittism).)
    \280\ ``Three Tibetan Women Arrested in Lhasa,'' Phayul (Online), 
15 June 06; ``Chinese Authorities Detain Five Tibetans for Alleged 
Leafleting,'' Radio Free Asia (Online), 16 June 06; ``Tibetan Monk 
Faces Eight Years for Separatism,'' Radio Free Asia (Online), 14 July 
06; ``China Detains Teenage Girl for Writing Pro-Independence 
Leaflets,'' Radio Free Asia (Online), 18 August 06; ``China Detains 
Tibetan Abbot in Sichuan,'' Radio Free Asia (Online), 7 September 06; 
``Another Tibetan Monk Arrested,'' Radio Free Asia (Online), 19 
September 06;; ``Officials Detain Nine Tibetan Residents of Sichuan for 
Links to Leaflets, Posters,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 3-4.
    \281\ ``China Detains Teenage Girl for Writing Pro-Independence 
Leaflets,'' Radio Free Asia.
    \282\ ``Tibetan Monk Faces Eight Years for Separatism,'' Radio Free 
Asia; ``Another Tibetan Monk Arrested,'' Radio Free Asia. Namkha 
Gyaltsen was reportedly held in a detention center in Aba (Ngaba) 
Tibetan and Qiang Autonomous Prefecture in Sichuan province, according 
to RFA, and Lobsang Palden is presumed to be detained in Ganzi TAP.
    \283\ ``China Detains Tibetan Abbot in Sichuan,'' Radio Free Asia.
    \284\ Tibetan Centre for Human Rights and Democracy (Online), 
``Monk Sentenced to Five Years Term for Distributing Political 
Pamphlets,'' 14 November 06.
    \285\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses,'' 
Spring 2007, 7.
    \286\ Tibetan Centre for Human Rights and Democracy (Online), 
``Former Tibetan Political Prisoner Served With 12 Years Prison Term,'' 
24 November 06. According to the TCHRD report, Sonam Gyalpo's family 
appealed his case. No additional information is available about the 
appeal.
    \287\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses.''
    \288\ TibetInfoNet (Online), ``Detentions Before 40th Anniversary 
of TAR,'' 9 September 2005.
    \289\ Ibid. Sonam Gyalpo was sentenced to three years' imprisonment 
in TAR Prison (Drapchi) after he supported a protest march by monks in 
Lhasa on September 27, 1987. He was held without charge for about one 
year in the TAR Police Detention Center (Sitru) after July 1993, when 
he returned to the TAR following an undocumented visit to India. Dui 
Hua Dialogue, ``Summary of Recent Prisoner Responses.'' Dui Hua reports 
that, according to the official Chinese response, Sonam Gyalpo was 
sentenced to three years in prison in January 1989 for 
``counterrevolutionary propaganda and incitement.'' (It is not clear 
whether the three-year sentence began in 1987 or 1989.)
    \290\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses.''
    \291\ Ibid.
    \292\ Tibetan Centre for Human Rights and Democracy (Online), 
``Commentary Manuscript Lands Tibetan Youth Ten Years in Prison,'' 25 
July 06.
    \293\ Ibid.
    \294\ International Campaign for Tibet (Online), ``Tibetan Scholar 
Sentenced to Ten Years in Prison After Writing Book on History and 
Culture,'' 8 August 06.
    \295\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses,'' 
Spring 2007, 7.
    \296\ International Campaign for Tibet, ``Tibetan Scholar Sentenced 
to Ten Years.'' ICT obtained a copy of the letter.
    \297\ ``Official Information Confirms Sentence for Tibetan Nun Who 
Put Up Posters,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 17.
    \298\ Free Tibet Campaign (Online), ``Four Monks and Nuns Arrested 
for Displaying Dalai Lama Poster,'' 30 January 06; ``Gansu Court 
Sentences Five Tibetan Monks and Nuns for Protest Posters,'' CECC China 
Human Rights and Rule of Law Update, March 2006, 10-11; Radio Free Asia 
(Online), ``China Arrests Tibetan Monks, Nuns for Dalai Lama Poster,'' 
20 December 05; Tibetan Centre for Human Rights and Democracy (Online), 
``Arrest of Tibetan Monks for Postings Calling for Freedom in Tibet,'' 
15 July 05; ``Official Information Confirms Sentence for Tibetan Nun 
Who Put Up Posters,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 17.
    \299\ ``Five Tibetan Monks Jailed in Western China,'' Radio Free 
Asia (Online), 13 February 05; Tibetan Centre for Human Rights and 
Democracy, Human Rights Update February 2005, ``Monks Imprisoned for 
Political Journal,'' April 2005.
    \300\ International Campaign for Tibet (Online), ``Long Sentences 
for Tibetan Political Prisoners for `Splittist' Offences,'' 12 May 06. 
The ICT report contains a link to an ICT translation of the sentencing 
document. ``Lhasa Court Commutes Life Sentence for Children's Home 
Director to 19 Years,'' CECC China Human Rights and Rule of Law Update, 
April 2006, 16. The sentencing document lists evidence against Bangri 
Chogtrul that includes meeting the Dalai Lama, accepting a donation for 
the home from a foundation in India, and a business relationship with a 
Tibetan contractor who lowered a Chinese flag in Lhasa in 1999 and 
tried to blow himself up. Jigme Tenzin Nyima acknowledged meeting the 
Dalai Lama, accepting the contribution, and knowing the contractor, but 
he denied the charges against him and rejected the court's portrayal of 
events.
    \301\ Dui Hua (Online), ``Dui Hua Executive Director Attends 
Trials, Explores Judicial Openness, Clemency Granted to Tibetan Monk, 
Labor Activist,'' 28 February 06.
    \302\ ``The Execution of Lobsang Dondrub and the Case Against 
Tenzin Deleg: The Law, the Courts, and the Debate on Legality,'' Topic 
Paper of the Congressional-Executive Commission on China, February 
2003; Human Rights Watch (Online), Trials of a Tibetan Monk: The Case 
of Tenzin Delek, 9 February 04.
    \303\ Ibid.
    \304\ ``Tibetan Monk Involved in Terrorist Bombing Still in 
Prison,'' Xinhua (Online), 31 December 04.
    \305\ Tibetan Centre for Human Rights and Democracy (Online), ``A 
Tibetan Arrested in Lithang for Political Demonstration,'' 2 August 07.
    \306\ International Campaign for Tibet (Online), ``Security 
Crackdown Feared Following Public Appeal by Tibetan for Return of Dalai 
Lama,'' 2 August 07; ``Scores of Tibetans Detained for Protesting at 
Festival,'' Radio Free Asia (Online), 2 August 07.
    \307\ International Campaign for Tibet (Online), ``Official 
Petition on Dalai Lama May Have Provoked Lithang Action,'' 10 August 
07. According to an ICT source: ``'It seems that most of the local 
population knew about this petition being circulated by officials, and 
it caused an increase in tension and anxiety. People in this area 
revere His Holiness the Dalai Lama, and Runggye Adak's action could 
have been a response to this provocative move by officials. Local 
people may have somehow wanted to demonstrate that this petition is a 
lie, and did not represent the wishes of Tibetans in Lithang.''
    \308\ ``Villager Detained for Inciting Separation,'' Xinhua, 
reprinted in China Daily (Online), 3 August 07.
    \309\ International Campaign for Tibet (Online), ``New Images 
Confirm Dispersal of Tibetans by Armed Police After Lithang Protest: 
Runggye Adak's Relatives Taken Into Custody,'' 24 August 07.
    \310\ Tibetan Centre for Human Rights and Democracy (Online), ``The 
Chinese Authorities Transfer Adruk Lopoe to an Unknown Location, Arrest 
Another Tibetan Nomad,'' 28 August 07; International Campaign for 
Tibet, ``New Images Confirm Dispersal of Tibetans by Armed Police After 
Lithang Protest.'' Tibetan Centre for Human Rights and Democracy 
(Online), ``China Arrest Three Nephews of Ronggye A'drak in Lithang,'' 
22 August 07.
    \311\ Tibetan Centre for Human Rights and Democracy (Online), ``The 
Chinese Authorities Transfer Adruk Lopoe to an Unknown Location, Arrest 
Another Tibetan Nomad,'' 28 August 07.
    \312\ Human Rights in China (Online), ``Tibetan Schoolboys Detained 
as Crackdown Worsens,'' 20 September 07.
    \313\ Ibid. The students allegedly wrote slogans on walls of the 
village police station, and elsewhere in the village.
    \314\ Ibid. According to the report, authorities held the students 
at a village police station from September 7-9 and allowed families to 
access the children.
    \315\ It is commonplace for multiple Tibetans in the same community 
to have identical names. Generally, Tibetan names do not include a 
family name.
    \316\ The number of known cases of current Tibetan political 
detention or imprisonment reported in CECC Annual Reports: 2002 Annual 
Report, 39, ``less than 200,'' based on a 2002 report by the Tibet 
Information Network (TIN); 2003 Annual Report, 79, ``approximately 
150,'' based on a March 2003 TIN report; 2004 Annual Report, 101, ``145 
prisoners,'' based on a February 2004 TIN report; 2005 Annual Report, 
112, ``120 current cases,'' based on CECC Political Prisoner Database 
information current in June 2005; 2006 Annual Report, 171, ``103 known 
cases of current Tibetan political detention or imprisonment,'' based 
on PPD information current in August 2006.
    \317\ Dui Hua Dialogue, ``Official Responses Reveal Many Sentence 
Adjustments.''
    \318\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Decisions adopted by the Working Group on 
Arbitrary Detention, Decision No. 65/1993, 5 October 94.

                                 <all>

</pre></body></html>
